<html>
<title> - IMPLICATIONS OF THE CRISIS IN UKRAINE</title>
<body><pre>[Senate Hearing 113-513]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-513

                 IMPLICATIONS OF THE CRISIS IN UKRAINE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                         U.S. GOVERNMENT PRINTING OFFICE 

91-859 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001













                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Brzezinski, Dr. Zbigniew K., former U.S. National Security 
  Advisor, counselor and trustee, Center for Strategic and 
  International Studies, Washington, DC..........................    24
    Prepared statement...........................................    26
Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     2
Melia, Thomas, Deputy Assistant Secretary of State, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    10
    Response to question submitted for the record by Senator 
      Edward J. Markey...........................................    40
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Nuland, Hon. Victoria, Assistant Secretary for European and 
  Eurasian Affairs, U.S. Department of State, Washington, DC.....     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by the 
      following Senators:
        Robert Menendez..........................................    37
        Bob Corker...............................................    39
        Edward J. Markey.........................................    40

              Additional Material Submitted for the Record

Prepared Statement of Ukrainian Congress Committee of America....    35
Letter from the United Oppositions to the Senate of the United 
  States.........................................................    36

                                 (iii)

  

 
                 IMPLICATIONS OF THE CRISIS IN UKRAINE

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Shaheen, Durbin, Murphy, 
Corker, Risch, Johnson, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing will come to order.
    I want to thank our distinguished panelists for being here. 
Dr. Brzezinski, who will be here shortly, needs no 
introduction. His reputation as one of the Nation's leading 
voices on foreign policy goes without saying. Assistant 
Secretary Nuland and Deputy Assistant Secretary Melia are 
equally able to give us a broader perspective on the 
implications of current events in the Ukraine, so, on behalf of 
the committee, we thank you for being here.
    Let me also join Senator McCain in recognizing the former 
Ukrainian Foreign Minister, Boris Tarasyuk, and the current 
Ambassador of the Ukraine, Olexander Motsyk, who are both here 
today. We welcome you to the committee.
    We are also joined by members of the Ukrainian Congress 
Committee of America, including President Tamara Olexy, 
chairman of the board, Stefan Kaczaraj, executive vice 
president, Andrew Futey, and board members, Roksolana Lozynskyj 
and Michael Sawkiw. So, we welcome all of you, and we 
appreciate that many of you are actually from the great State 
of New Jersey, and are contributing dramatically to our State.
    I am going to entertain Senator McCain's request at this 
time, and, without objection, the statement will be entered 
into the record.

[Editor's note.--Senator McCain's prepared statement can be 
found in the ``Additional Material Submitted for the Record'' 
section of this hearing.]

    The Chairman. For 20 years, Ukrainians have labored to 
reestablish their nation and create a prosperous economy. In 
2013, it seemed that the conclusion of association agreements 
with the European Union would have a profoundly positive effect 
on their national development; but, somewhat unexpectedly, on 
Thursday, November 21, Ukraine's President, Viktor Yanukovych, 
announced that Ukraine would not sign those agreements, and 
people took to the streets. That decision was preceded by 
coercive actions by the Russian Government: Ukrainian exports 
to Russia were halted by Russian authorities, its energy 
lifeline from Russia was publicly threatened by Russian 
Ministers, and even EU member states were subjected to 
intimidation by Moscow for being sponsors of Ukraine's 
affiliation with the European Union.
    Since then, the world has watched as Presidents Yanukovych 
and Putin negotiated a deal that will bring Ukraine once again 
within Russia's political and economic orbit, suggesting 
Russia's determination to exert control over Ukraine.
    We are here today to get a better understanding of the 
events leading up to President Yanukovych's decision to break 
with the EU, the decision's implication for the future of 
Ukraine, for the region, and, in my perspective, for the world.
    Let me say that, earlier this month, I met with members of 
New Jersey's Ukrainian diaspora, and they asked me to bring 
attention to the thousands of protestors in the Maidan who want 
a voice in the future of their country and respect for their 
human rights and dignity, and I would like to assure them today 
that this committee is not deaf to those brave people whose 
capacity for hope and appetite for freedom has compelled them 
to take to the streets. The world is, indeed, watching. And how 
those who have been in the Maidan, and who leave it, are 
treated will also be watched by this committee and the world.
    With that, let me turn to Senator Corker for his remarks.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    I typically do not read formal remarks, but I am going to 
do that today.
    I would like to welcome the witnesses from this 
administration, as well as Dr. Brzezinski. I am glad that the 
chairman has called this hearing. I think that the importance 
of Ukraine is not entirely appreciated.
    With the exception of Russia and France, Ukraine is the 
largest country in Europe, with a population of 46 million 
people and vast unrealized potential. And, while Ukraine is 
critically important in its own right, what is often missed is 
that positive change in Ukraine would help stimulate positive 
change in Russia. In my view, what has transpired in Ukraine is 
one of the most recent examples where United States leadership, 
at the right moment, could have been decisive.
    I recognize that the history of this is complex and there 
are mitigating factors and forces involved that, even in the 
best of times, we have little influence over. We should 
acknowledge that the Europeans did not want us deeply involved, 
fearing United States involvement would risk provoking Russia 
and framing the decision as part of a geopolitical struggle.
    The Ukrainian Government, for its part, seemed to be 
playing each side against each other, asking for unrealistic 
terms from the IMF that ignored the country's need for reform. 
Ukraine's leadership failed to meet the EU's condition for an 
association agreement and, instead, opted for a $15 billion 
loan and a natural gas discount from Russia. This decision to 
place the interest of Ukraine's political elites above the 
country's well-being has been rejected by the majority of 
Ukrainians, which is substantiated by the massive protests held 
since November.
    But, none of this accounts for why United States policy 
toward Ukraine was weak when it needed to be decisive and 
forceful. Critics have accused the administration of bumbling 
or incompetence as the reason for the absence of assertiveness 
and leadership on our part. But, I do not think that that is 
the case. A lack of U.S. leadership appears to be intentional, 
an example of troubling recent tendencies of the 
administration's policies in places where our interests are 
being challenged.
    Apparently overly concerned with offending Russia, the 
administration seems to have somehow made the calculation 
initially that a passive response might yield more than 
assertive U.S. leadership. I think that it is important to ask 
now, with Russia gaining at our expense in Syria, in Iran, on 
missile defense, Edward Snowden, and now Ukraine, whether that 
was the right approach. When President Yanukovych saw that we 
did not come out clearly and forcefully when Russia all but 
boycotted Ukrainian goods and threatened them, he probably 
reached the same conclusion that many of our friends in tough 
neighborhoods have made: we are not the partner that they can 
count on in tough times.
    Perhaps even more troubling is the fact that our risk-
averse policy precluded the very real opportunity to seek 
change in Russia through Ukraine by not making Ukraine a 
concession to the Kremlin, but by making Ukraine an example. 
The repercussions in Russia of a free and prosperous Ukraine 
integrated with Europe could be enormous. This might not be in 
Putin's personal interest, but is certainly in the interest of 
the Russian people.
    Fortunately, I think that the administration has now begun 
to assert our interests and those of the Ukrainian people, but, 
like in other places, they got there only in reaction to events 
well after they begin to play out unfavorably.
    Ukraine is not a zero-sum game between Russia and the West. 
The popular sentiment in Ukraine is in favor of moving toward 
Europe, and I hope that that effort will ultimately prevail, 
but we have to determine how to best aid and hasten that move.
    Thank you, and I look forward to your testimony on the 
topic. I appreciate all of our witnesses being here.
    And, Ms. Nuland, I think that you have asserted effort 
there recently, which I much appreciate.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Our first panel today is the Assistant Secretary of 
European and Eurasian Affairs, Victoria Nuland, and the Deputy 
Assistant Secretary of State, the Bureau of Democracy, Human 
Rights, and Labor, Mr. Thomas Melia. We appreciate your 
appearance. Your full statements will be included in the 
record. We would ask you to summarize it in about 5 minutes or 
so, so that we can enter into a dialogue with you.
    And, with that, Madam Secretary, you will be up first.

  STATEMENT OF HON. VICTORIA NULAND, ASSISTANT SECRETARY FOR 
   EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Nuland. Thank you, Chairman Menendez, Ranking 
Member Corker, distinguished members of the Senate Foreign 
Relations Committee. It is my honor to appear before you today 
to discuss the situation in Ukraine and our response to it.
    These are, indeed, challenging times for the people of 
Ukraine and for people everywhere who care about democracy, 
economic prosperity, rule of law, and a European future for 
that country.
    First, let me express our gratitude to this committee and 
to the U.S. Senate for your leadership on Ukraine and for the 
superb working relationship between the executive and 
legislative branches of government on this issue. Senate 
Resolution 319, introduced in December and adopted on January 
7, sent a strong bipartisan message of concern and support to 
the Ukrainian people at a key moment.
    I also want to thank and commend Senators McCain and Murphy 
for bringing that bipartisan support directly to the people of 
Ukraine on a key weekend in December and engaging with 
President Yanukovych, his government, the opposition, the 
business community, and civil society in support of a peaceful, 
democratic way out of the crisis. The people of Ukraine saw 
America stand with them at a critical moment, when they could 
have felt very alone.
    The world has watched as the peaceful protest of hundreds 
of thousands of Ukrainians on the Maidan, in Kiev, and tens of 
thousands in cities across Ukraine. I am often asked why they 
come out, week after week, young and old, and from every 
economic sector of Ukraine, despite the frigid weather. I can 
only tell you what Ukrainians tell us. They say that what began 
as a protest against the government's decision to pause on the 
route to the association agreement and a deep and comprehensive 
free trade agreement with the European Union quickly deepened 
and broadened into something very much more in the ensuing 
weeks as events snowballed. These events included the violent 
action by security forces against Maidan protesters on November 
30, the lack of government accountability that followed that, 
the second attempt to use security forces to shut down the 
Maidan in the wee hours of December 11, an evening that EU High 
Representative Cathy Ashton and I were both in Ukraine, and, 
finally, the Ukrainian Government's decision to accept $15 
billion in Russian bailout money. The Ukrainians tell us that, 
over those weeks, the movement that started as a demand for a 
European future grew into a protest for basic human dignity and 
justice, for clean and accountable government, and economic and 
political independence of Ukraine.
    So, why does the United States have an interest in how this 
turns out? Our chairman and ranking member have spoken to that. 
It is because countries that live freely and independently and 
respect the rule of law are more stable and they make better 
partners for the United States. The same principles and values 
that Ukrainians are fighting for are the cornerstone of all 
free democracies, and America supports these values in every 
country on the planet.
    The EuroMaidan protestors--students, workers, pensioners, 
priests, entrepreneurs, business moguls, and pop stars--are all 
calling for the same basic rights that we hold dear here in the 
United States. They want to live in a country where their 
government truly represents the wishes of the people and where 
they can safely exercise their rights without fear of 
oppression.
    Just this past weekend, tens of thousands of protestors 
returned to the Maidan, and they also returned to the streets 
and squares across Kiev to make their demands and to protest 
the latest assaults on human dignity, including the beatings of 
opposition leader and former Interior Minister, Yuriy Lutsenko, 
and journalist, Tetyana Chornoval, as well as dozens of other 
acts of intimidation and criminality and efforts to stifle the 
media and political activity across the country.
    Like the vast majority of Ukrainians, the United States and 
our partners in the European Union want to see the current 
standoff resolved politically, democratically, and, above all, 
peacefully. This last point applies to the government and to 
protestors, alike. We condemn the actions of rioters outside 
the Kiev court building on January 10. However, the use of 
violence and acts of repression carried out by government 
security forces and their surrogates have compelled us to make 
clear, publicly and privately, to the Government of Ukraine 
that we will consider a broad range of tools at our disposal if 
those in positions of authority in Ukraine employ or encourage 
violence against their own citizens.
    We have also pressed all key stakeholders--President 
Yanukovych, his government, the opposition, business 
representatives, religious leaders, and civil society--to 
engage in a good-faith dialogue to get Ukraine back on the path 
to economic health, justice, and a European future.
    When I last met with President Yanukovych, which was on 
December 11, he asserted that he still wanted those things for 
his people, and Foreign Minister Kaczaraj reassured me of the 
same thing in a phone call on Monday. If those assertions are 
true, we call on the Ukrainian Government to make them credible 
through concrete actions to restore government accountability, 
rule of law, and engagement with Europe and the IMF.
    In this connection, we commend the European Union for 
leaving the door open for Ukraine and the International 
Monetary Fund for its willingness to work with Ukraine when the 
government decides that it is actually willing to roll up its 
sleeves and address the serious structural and macroeconomic 
problems that have plagued that country for years.
    The IMF is offering a proven, if arduous, long-term-diet 
plan back to good health for Ukraine. Like any tough health 
regime, it will require work and sacrifice, but the rewards are 
great. When Ukraine's leaders are ready to invest in that kind 
of a program, the United States and our EU partners will help 
them sustain that commitment. We urge them to restart IMF 
consultations now.
    Looking forward, the United States will also work hard to 
support free and fair Presidential elections in 2015, and a 
fair electoral process leading up to the elections. The rerun 
of parliamentary elections in December was not up to 
international standards. We call on the Government of Ukraine 
to fully investigate all regularities there, and we call on all 
Ukrainians to help guard their democracy against encroachments 
on media freedom, political intimidation, efforts to rig, 
corrupt, or undercut the electoral structures and processes.
    U.S. preelectoral assistance in Ukraine will likely include 
programs to support citizen oversight of the electoral 
environment and the conduct of the elections, independent media 
coverage, and informed citizen awareness and participation. We 
will also focus on supporting the integrity of the process and 
not support any specific candidates or parties. Like the rest 
of our policy toward Ukraine, this will be carefully 
coordinated with the EU.
    In addition to election-related programming, the State 
Department and USAID are reviewing how best to support 
Ukrainian civil society and the media, and to further 
strengthen rule of law. Given the threats currently facing many 
nongovernmental organizations who participated in the 
EuroMaidan, we are looking at ways we can support those who 
feel that they may be in personal danger, as well. And we will 
work with the EU to support their efforts to disseminate 
reliable information on what European integration really means 
to the Ukrainian public, especially in the East, and to counter 
false narratives and fear-mongering.
    As we have said repeatedly over the last few months--and, 
Senator Corker, I was pleased to hear you say this--Ukraine's 
European integration is not a zero-sum calculation. We 
encourage Ukraine to continue to develop normal and strong 
sovereign relations with all of its neighbors. There is also, 
unfortunately, a good deal of disinformation in Russia about 
the potential effect that the EU's Eastern Partnership could 
have on its economy and arrangements with neighbors, so we 
encourage the EU also to redouble its efforts to counter those 
false narratives within Russia and actively make its case that 
a more prosperous, more European Ukraine will lift the whole 
neighborhood, both economically and in terms of democratic 
stability.
    Ukrainians have struggled for 20 years, as you said, Mr. 
Chairman, to protect and strengthen their sovereignty, their 
democracy, and their economy. The events of the last 6 months 
demonstrate that Ukrainians want and deserve better. I am proud 
to work with this committee to support those aspirations.
    Thank you.
    [The prepared statement of Ambassador Nuland follows:]

               Prepared Statement of Hon. Victoria Nuland

    Thank you, Chairman Menendez, Ranking Member Corker, and 
distinguished members of the Senate Foreign Relations Committee. It is 
my honor to appear before you today to discuss the situation in Ukraine 
and our response to it. These are challenging times for the people of 
Ukraine and for people everywhere who care about democracy, economic 
prosperity, rule of law and a European future for that country.
    First let me express our gratitude to this committee and to the 
U.S. Senate for your leadership on Ukraine, and for the superb working 
relationship between the executive and legislative branches of 
government on this issue. Senate Resolution 319, introduced in December 
and adopted on January 7, sent a strong, bipartisan message of concern 
and support to the Ukrainian people at a key moment. I also want to 
thank and commend Senators McCain and Murphy for bringing that 
bipartisan support directly to the people of Ukraine on a key weekend 
in December, and engaging with President Yanukovych, his government, 
the opposition, the business community and civil society in support of 
a peaceful, democratic way out of the crisis. The people of Ukraine saw 
America stand up with them at a critical moment when they could have 
felt very alone.
    The whole world has watched the peaceful protest of hundreds of 
thousands of Ukrainians on the Maidan in Kiev and tens of thousands in 
other cities across Ukraine. I am often asked why they come out week 
after week, young and old, and from every economic sector of Ukraine, 
despite the frigid weather. I can only tell you what Ukrainians tell 
us. They say that what began as a protest against the government's 
decision to ``pause'' on the route to an Association Agreement and Deep 
and Comprehensive Free Trade Agreement with the European Union deepened 
and broadened into something much more in the ensuing weeks as events 
snowballed. These included: the violent attempt by security forces to 
clear the Maidan of protestors on November 30 and the lack of 
government accountability that followed; the second attempt to use 
security forces to shut down the Maidan in the wee hours of December 
11; and finally the Ukrainian Government's decision to accept $15 
billion in Russian bailout money. Ukrainians tell us that over those 
weeks the movement that started as a demand for a European future grew 
into a protest for basic human dignity and justice, clean and 
accountable government, and economic and political independence of 
Ukraine.
    Why does the United States have an interest in how this turns out? 
Because these same principles and values are the cornerstone of all 
free democracies, and America supports them in every country on the 
planet. Countries that live freely and independently and respect the 
rule of law are more stable and make better partners for the United 
States. The EuroMaidan protestors--students, workers, pensioners, 
priests, entrepreneurs, business moguls and popstars--are all calling 
for the same basic rights we hold dear here in the United States. They 
want to live in a country where their government truly represents the 
wishes of the people and where they can safely exercise their rights 
without the fear of oppression.
    Just this past weekend tens of thousands returned to the Maidan in 
Kiev, hundreds joined them in other cities like Kharkiv, and some 500 
cars participated in a ``protest drive'' called AutoMaidan. They 
returned to the squares and streets of Ukraine to make their demands, 
and to protest the latest assaults on human dignity, including the 
beatings of opposition leader and former Interior Minister, Yuriy 
Lutsenko, and journalist, Tetyana Chornovol, as well as dozens of other 
acts of intimidation and criminality, and efforts to stifle the media 
and political activity across the country.
    Like the vast majority of Ukrainians, the United States and our 
partners in the European Union want to see the current standoff 
resolved politically, democratically and above all, peacefully. This 
last point applies to the government and protestors alike, and we 
condemn the actions of rioters outside a Kiev court building on January 
10. However, the use of violence and acts of repression carried out by 
government security forces and their surrogates have compelled us to 
make clear publicly and privately to the Government of Ukraine that we 
will consider a broad range of tools at our disposal if those in 
positions of authority in Ukraine employ or encourage violence against 
their own citizens. We have also pressed all key stakeholders--
President Yanukovych, his government, the opposition, business 
representatives, religious leaders, and civil society--to engage in a 
good-faith dialogue to get Ukraine back on the path to economic health, 
justice, and a European future. When I last met with President 
Yanukovych on December 11, he asserted that he still wanted all those 
things for his people. If that assertion is still true, we call on him 
to make it credible through concrete actions to restore government 
accountability, rule of law and engagement with Europe and the IMF.
    In this connection, we commend the European Union for leaving the 
door open for Ukraine, and the International Monetary Fund for its 
willingness to work with Ukraine when the government is willing to roll 
up its sleeves and address the serious structural and macroeconomic 
problems that have plagued the country for years. The IMF is offering a 
proven, if arduous, long-term diet plan back to good economic health. 
Like any tough health regime, it requires work and sacrifice but the 
rewards are great. When Ukraine's leaders are ready to invest in that 
kind of program, the United States and our EU partners will help them 
sustain the commitment. We urge them to restart consultations now.
    Looking forward, the United States will work hard to support a free 
and fair Presidential election in 2015. The rerun of parliamentary 
elections held on December 15 was not conducted according to 
international standards, especially with respect to alleged misconduct 
during the election campaign. We call on the Government of Ukraine to 
thoroughly investigate all reported violations, and to prosecute those 
responsible for them. We also call on all Ukrainians to help guard 
their democracy against encroachments on media freedom, political 
intimidation or efforts to rig, corrupt, or undercut electoral 
structures and processes.
    U.S. preelection assistance to Ukraine likely will include programs 
to support citizen oversight of the campaign environment and the 
conduct of the elections, independent media coverage and informed civic 
awareness and participation. The United States will focus on supporting 
the integrity of the process, and not support any specific candidates 
or parties. Like the rest of our policy toward Ukraine, our assistance 
will be carefully coordinated with the EU.
    In addition to election-related programming, the State Department 
and USAID are reviewing how best to support Ukrainian civil society and 
media and to further strengthen the rule of law. Given the threats 
currently facing many nongovernmental organizations who participated in 
the EuroMaidan, we are looking at ways we can support those who feel 
they may be in danger. We will also work with the EU to support their 
efforts to disseminate reliable information on what European 
integration really means to the Ukrainian public, especially in the 
East, and to counter false narratives and fear-mongering.
    As I have said repeatedly over the past few months, Ukraine's 
European integration is not a zero-sum calculation. We encourage 
Ukraine to continue to develop normal and strong, sovereign relations 
with all neighbors. There is also, unfortunately a good deal of 
disinformation in Russia about the potential effect that the EU's 
Eastern Partnership could have on its economy and arrangements with 
neighbors. We have encouraged the EU to redouble its efforts to counter 
false narratives in Russia and actively make its case that a more 
prosperous, European Ukraine will lift the whole neighborhood, both 
economically and in terms of democratic stability.
    Ukrainians have struggled for 20 years to protect and strengthen 
their sovereignty, their democracy and their economy. The events of the 
last 6 months demonstrate that Ukrainians want and deserve better. I am 
proud to work with this committee to support their aspirations.

    The Chairman. Thank you.
    Secretary Melia.

STATEMENT OF THOMAS MELIA, DEPUTY ASSISTANT SECRETARY OF STATE, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Melia. Thank you, Chairman Menendez, Senator Corker, 
and other Senators, for inviting me to testify on the situation 
in Ukraine.
    Over the last few weeks and months, your forthright 
statements, Mr. Chairman, forthright and principled statements, 
and those of so many others on this committee and in the 
Congress, have sent important messages about the interests and 
the focus of the United States and the American people to 
assist Ukraine at this critical moment.
    It is also an honor to appear beside Ambassador Nuland, 
who, you may know, is revered across the State Department, and 
especially in my Bureau for Democracy and Human Rights, for her 
leadership on issues of democracy and human rights.
    Working with her Bureau, our Embassy in Kiev, the 
Department of Justice, and the U.S. Agency for International 
Development, our Bureau has, over the last 3 years, maintained 
direct and frequent engagement with the Government of Ukraine, 
and intensely with Ukrainian civil society, on democracy and 
rule-of-law issues. These dialogues, often under the umbrella 
of the U.S.-Ukraine Strategic Partnership Commission, have 
provided a regular high-level forum for serious, honest 
exchanges about the government's reform efforts, which have 
waxed and waned during the tenure of Viktor Yanukovych as 
President, and for frank conversations about problem areas, 
such as corruption, democratic backsliding, and other setbacks.
    We have utilized this forum to push back in the year 2010, 
on harassment of journalists in civil society in the first 
months of the Yanukovych administration, raising these issues 
directly with Cabinet members, including the head of the 
Internal Security Service in Ukraine. And the harassment waned 
for a while.
    Within this working group, we have held frank discussions 
about the increase in the harassment of journalists in civil 
society which surfaced again this year. As it did in 2010, the 
efforts by the government to repress civil society and 
independent journalism have galvanized civic activism across 
Ukraine. They have formed coalitions, called the Stop 
Censorship Movement and the New Citizen Campaign, which 
mobilized and informed citizens about their basic rights under 
Ukraine's laws and constitution. Nonpartisan civil society 
remains a significant, powerful force for democratic reform in 
Ukraine.
    Unfortunately, the negative trend in the treatment of 
journalists, in particular, has seen a resurgence in the past 
few months. According to the Institute of Mass Information, 
respected Ukrainian media watchdog, there are more than 100 
attacks and cases of intimidation against journalists in 2013, 
most half of them occurring in December, alone. In addition, 
IMI recorded 120 cases of obstruction of journalist 
professional activities, 51 cases of censorship, 44 cases of 
economic and political pressure, and five arrests and 
detentions.
    While the protests on the Maidan and across the country may 
have lost some of their numbers, they have lost none of their 
intensity. The embers that sparked the protests in late 
November are still burning and will not be easily extinguished. 
The tens of thousands of people who turned out again this past 
weekend in Kiev and other cities across Ukraine, now in the 
third month of these protests, testify to this. And, thanks to 
the support of this committee and the Congress, we have 
invested over $5 billion to assist Ukraine in these and other 
goals to ensure a secure, prosperous, and democratic Ukraine.
    Since 2009 alone, when President Obama took office, the 
U.S. Government has provided more than $184 million in 
assistance to Ukraine in programs under the rubric of governing 
justly and democratically, those programs which focus on 
professional development programs for judges, Members of 
Parliament, legal advocates, civil society, and democratic 
political parties, elections, and independent media. Most of 
this is managed--and I would say managed well--by our 
colleagues at the U.S. Agency for International Development, 
led by Paige Alexander and her colleagues at the mission in 
Ukraine, but it also includes programs from the State 
Department, our Bureau, Department of Justice, and elsewhere 
across the U.S. Government. This level of assistance 
underscores both our commitment to Ukraine and our intention to 
continue engaging both with the government and the people of 
Ukraine. Our approach to Ukraine complements that of our EU 
partners and what they sought in their association agreement: a 
Ukraine that is more responsive to its citizens, that offers 
its people opportunities that a growing free-market economy 
would provide based on the rule of law.
    Looking forward, we will continue to work with our 
colleagues elsewhere in the State Department, AID, and across 
the government, to support dialogue with the government, 
support for civil society, and especially independent media.
    We know there are senior officials in the Ukrainian 
Government today, as well as in the business community, just 
like in the opposition and in the civil society community, who 
believe in a democratic and European future for their country. 
They continue to work hard to move their country and their 
President in the right direction. 
We will continue to try to provide targeted, effective support 
to Ukraine's democrats in and out of the government. This 
committee's continuing support and attention remains absolutely 
essential. Again, we appreciate your support for last week's 
resolution, the Murphy resolution. I think that sent a very 
powerful message. And this hearing today underscores that, as 
well.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Melia follows:]

                 Prepared Statement of Thomas O. Melia

    Thank you, Chairman Menendez, Ranking Member Corker, and 
distinguished members of the Senate Foreign Relations Committee for 
inviting me to testify on the situation in Ukraine. We very much 
appreciate the attention you are according to a country at the center 
of Europe and a valued partner for the United States.
    Last week the Senate unanimously passed Senator Murphy's Senate 
Resolution 319, which came out of this committee: Expressing support 
for the Ukrainian people in light of President Yanukovych's decision 
not to sign an Association Agreement with the European Union.
    I am pleased to provide additional context from my Bureau, the 
Bureau of Democracy, Human Rights and Labor which, in partnership with 
the Bureau of European and Eurasian Affairs, our Embassy in Kiev, the 
Department of Justice and with the U.S. Agency for International 
Development (USAID), has been in direct and frequent engagement during 
the past 3 years with the Government of Ukraine and Ukrainian civil 
society in bilateral dialogues on democracy and rule of law issues.
    As my colleague Assistant Secretary Nuland noted these are indeed 
challenging times for the people of Ukraine and for people everywhere 
who care about the future of Ukraine. Many of us continue to monitor 
the ongoing developments in the center of Kiev on the ``EuroMaidan'' 
and in other cities across Ukraine that have come to symbolize a 
fundamental struggle for economic opportunity, political freedom, and 
personal expression.
    While the protests may have lost some of their intensity I believe 
the embers that sparked the protests in late November are still burning 
and will not be easily extinguished. The tens of thousands of people 
who turned out again this past weekend in Kiev and other cities across 
Ukraine are testimony to this.
    Senators McCain and Murphy have shared their experiences in the 
days after they returned from their December 15 visit to Kiev, which 
they described as ``unforgettable and moving,'' standing on the stage 
overlooking the Maidan and addressing a crowd estimated at 500,000--
some of whom shouted cheers of ``Thank you, USA!''
    The United States stands with the Ukrainian people in solidarity in 
their struggle for fundamental human rights and a more accountable 
government. To that end, we call on the government to intensify its 
investigations and to bring to justice those responsible for inciting 
incidents of violence, particularly on November 30 and December 11. 
Violence and intimidation have no place in a democratic state. We 
urge the Government of Ukraine to ensure that those who have led or 
participated in peaceful protests are not subjected to prosecution or 
other forms of political repression.
    At the same time, we will continue to engage with the Government of 
Ukraine. Ukraine remains an important partner for the United States. 
Our overall approach to Ukraine complements what our EU partners are 
also seeking in their Association Agreement--a Ukraine that is more 
responsive to its people and that offers its people the opportunities 
that a growing, free market economy based on the rule of law provides.
    The U.S.-Ukraine Charter on Strategic Partnership signed in 2008 
demonstrates the broad range of our relations, from economic and 
defense reform, to energy, to strengthening democracy, the rule of law, 
and human rights. The fact that the Charter has endured--even after 
changes in administrations in both our governments since 2008--is 
testimony to the enduring nature of our partnership.
    Since Ukraine's independence in 1991, the United States has 
supported Ukrainians as they developed democratic skills and 
institutions, strengthened the rule of law, and promoted civic 
participation and good governance, all of which are preconditions for 
Ukraine to achieve its European aspirations. We have invested over $5 
billion to assist Ukraine in these and other goals that will ensure a 
secure, prosperous, and democratic Ukraine. Of that amount well over 
$815 million was for democracy and exchange programs. Much of this is 
being implemented through a range of technical assistance programs and 
working with nongovernmental actors in Ukraine.
    Since 2009 when President Obama took office, the U.S. Government 
has provided over $184 million in Governing Justly and Democratically 
(GJD) assistance to Ukraine. This includes democracy programs managed 
by USAID and the State Department, and exchange programs managed by the 
State Department and the Open World Leadership Center.
    A key element of the Strategic Partnership's Charter to strengthen 
Ukraine's democracy is the Political Dialogue/Rule of Law Working 
Group, which brings together American and Ukrainian officials to 
exchange ideas about best practices, the Ukrainian Government's reform 
efforts, and about problems areas, such as corruption, which has 
stunted Ukraine's economic and social development. Inclusive in its 
approach, the Working Group--which I cochair together with a senior 
Ukrainian counterpart--welcomes input from civil society and 
nongovernmental representatives from both countries. To date we have 
met formally six times in Kiev and Washington since 2009. Our last 
meeting was in October in Kiev, and the next meeting is planned for 
this March in Washington.
    Within the working group, we held frank discussions about the 
increase in harassment of journalists and civil society that has taken 
place in recent years. This harassment galvanized civil society. 
Together they formed new coalitions to stand up and push back, such as 
the ``Stop Censorship!'' movement and the ``New Citizen'' campaign, 
which sought to mobilize and inform citizens about the problems and 
their basic rights under the Ukraine's laws and constitution.
    Unfortunately, the negative trend in the treatment of journalists 
has continued, and the Government of Ukraine has failed to consistently 
respect the rights of freedom of speech and press provided by the 
constitution and by law. Ukraine's ratings for media freedom by 
international groups, such as Freedom House and Reporters without 
Borders, have declined for 3 years in a row.
    Interference with and pressure on media outlets by the government 
has increased, including the government's tolerance of increased levels 
of violence toward journalists. Both media owners and journalists at 
times yield to government pressure and intimidation by practicing self-
censorship. There is also an emerging pattern of targeted intimidation 
and violence against journalists and activists brave enough to speak 
out.
    According to the Institute of Mass Information (IMI), a respected 
Ukrainian media watchdog, there were more than 100 attacks and cases of 
intimidation against journalists in 2013--nearly half of these occurred 
in December. In addition, IMI recorded 120 cases of obstruction of 
journalists' professional activities, 51 cases of censorship, 44 cases 
of economic and political pressure, and 5 arrests and detentions. The 
U.S Government will continue to speak out frankly and forcefully 
against violence, intimidation, and repression whenever and wherever it 
occurs, as we 
have in recent weeks with regard to the appalling and brutal beating of 
Tatiana Chornovol on Christmas Day.
    In our working group, we also continued to raise our concerns about 
politically motivated prosecutions, including that of former Prime 
Minister Yulia Tymoshenko. We urged the government to allow Mrs. 
Tymoshenko to obtain the medical treatment she requires outside the 
country, to end all politically motivated prosecutions, and to 
undertake comprehensive justice sector reform to ensure such selective 
justice does not recur.
    Other issues of concern discussed were election standards and 
recent local and national elections. In October 2010, local elections 
did not meet the standards for openness and fairness due to numerous 
procedural and organizational irregularities, including incidents where 
authorities pressured election observers and candidates. The 2012 
parliamentary elections did not meet international standards for 
fairness or transparency, and were assessed as a step backward compared 
with other recent national elections in the country. Repeat elections 
in December in five disputed single-mandate districts from the 2012 
elections were no better.
    Looking forward, we will continue to work in concert with the 
Bureau of European and Eurasian Affairs, our Embassy in Kiev, and with 
USAID to support free and fair Presidential elections in 2015--not only 
on Election Day but in the many months ahead.
    We believe the frank and open conversations of the Working Group 
have strengthened our efforts, cooperation, and engagement with the 
Government of Ukraine on several important bilateral issues. For 
example, our engagement helped to press the Government of Ukraine in 
key areas, such as adoption of the new Criminal Procedure Code, which 
came into force in November 2012. The Embassy did much to facilitate 
deliberations to enable its adoption. Among other reforms, the code 
introduced adversarial criminal proceedings, alternatives to pre-trial 
detention and improved due process guarantees.
    Two other recent reforms were new laws on Public Associations and 
Access to Public Information. Both of these laws benefit civil society 
in that they simplify registration procedures for NGOs, expand their 
ability to engage in a broader range of activities, including limited 
fundraising, and create a mandate for more transparent and accountable 
government by requiring authorities to provide government information 
upon request.
    In addition, during 2103 Ukraine's Parliament passed 18 separate 
pieces of reform legislation as part of its preparations to sign the 
Association Agreement and Deep and Comprehensive Trade Agreement with 
the European Union.
    These developments have, to a notable degree, been shaped and 
influenced by Ukrainian civil society, including think tanks, 
university centers, NGOs, and advocacy groups, which provided expertise 
on important policymaking initiatives outside of government.
    Civil society has played a very visible and vital role in our 
bilateral working group dialogues. In connection with the formal 
meetings, civil society representatives convened independent parallel 
democracy and rule of law sessions, in which we, together with 
Government of Ukraine officials, took part. Some of the outcomes and 
analysis from these events helped inform our discussion during the 
formal dialogues.
    As a result, we have facilitated and fostered direct contact 
between civil society and Ukrainian Government officials--in Kiev and 
Washington--to the level that civil society representatives now 
participate in the dialogues as observers, which, in the context of 
similar bilateral dialogues that we have with other governments, is an 
unusual demonstration of transparency and inclusiveness. We hope and 
expect that this practice will continue.
    Dialogue and passage of good laws are only the first steps; the 
challenge comes in the implementation. And this is where we will 
continue to work with the government and civil society. Through our 
dialogues we have had honest, substantive, and thoughtful discussions 
about the challenges, problems and opportunities confronting Ukraine 
and affecting our bilateral partnership.
    It is clear that we have not shied away from clearly and frankly 
expressing our concerns about the current setbacks to the rule of law 
and democratic development, increasing corruption, and other democratic 
backsliding.
    Still, we know today that there are senior officials in the 
Ukrainian Government, in the business community, as well as in the 
opposition, civil society and religious community who believe in a 
democratic and European future for their country. They continue to work 
hard to move their country and their President in the right direction.
    We urge the government and the President to listen to these voices, 
to the Ukrainian people, to the EuroMaidan, and work toward building a 
more democratic, and prosperous Ukraine.
    We who care deeply about Ukraine remain engaged and stand with the 
people of Ukraine because they deserve much better government 
performance and accountability. We will continue to support the 
aspirations of all Ukrainian citizens for a more democratic future, in 
which the rule of law and respect for human rights prevail. During 
these past 2 months we have witnessed a renewed energy and optimism. 
People of all ages, of all classes, of all walks of life, and from all 
parts of the country are taking ownership of their future and coming 
out to demand a European future with great courage.
    On New Year's Eve, an estimated 200,000 Ukrainians gathered on the 
EuroMaidan to sing their national anthem--``Ukraine Has Not Yet 
Perished''--and welcome 2014, a new year of hope and transition to a 
more democratic country. One cannot help but to be moved and inspired 
after viewing the video images and photos of that night posted on the 
Internet.
    In that spirit, we continue to hold out the prospect of a closer 
and mutually beneficial partnership. We can be better friends and 
partners with a more democratic Ukraine than we can with a less 
democratic Ukraine.
    And beyond our bilateral engagement, we will also continue to work 
with the European Union and within the Organization for Security and 
Cooperation in Europe to press for respect for human rights and 
democratic principles in Ukraine.
    The vision of a Europe whole, free and at peace remains as 
compelling today as it did when it was first articulated some two 
decades ago. The United States seeks to work with the Ukrainian people 
and government to ensure a free, prosperous, and stable Ukraine 
anchored in the European future that its citizens desire.
    This committee's support and attention remains absolutely essential 
in Ukraine's continued democratic development. Again, we appreciate the 
committee's efforts on last week's resolution, this hearing, and your 
continued focus on Ukraine.
    Thank you. I look forward to answering your questions.

    The Chairman. Thank you both.
    Let me start off with an observation from our next witness 
after this panel. Dr. Brzezinski has said that Russia cannot be 
a democracy if it is an empire, and that it cannot be an empire 
if it lacks control of the Ukraine. Is that a view that you 
share?
    Ambassador Nuland. One would hope that the Russian 
Federation is not seeking to be an empire, that, according to 
its own constitution, it is seeking to be a democracy. The 
point that we have made repeatedly to Russia, and that I 
certainly made on my trip to Russia between two trips to 
Ukraine in December, was that a Ukraine that is economically 
stable and prosperous should be no threat to Russia; that this 
is not a zero-sum game that we are playing here; and that, in 
fact, the same benefits that the EU was offering to Ukraine, 
benefits of association and economic integration, are also 
available to a Russia that wants to take the same market-
opening and democratic reform steps that Ukraine has already 
taken, 18 pieces of legislation having already been completed.
    The Chairman. Well, I appreciate that, but clearly the 
Russians' view, in the greater scheme of things, even in the 
disparaging way in which they talk about the Ukraine as 
``Little Russia,'' shows that, in fact, their aspirations are 
very concrete, as is witnessed, not by their words, but by 
their actions. And I am wondering why the United States and the 
West failed to enforce certain restrictions, particularly 
against economic coercion, that were part of the Trilateral 
Agreement of 1984. I do not get the sense that we have a very 
aggressive response to what the Russians have been doing, and 
continue to do, in this regard. And as I hear your language--I 
do not disagree with anything you are saying--but, as I hear 
your language, it almost seems to be a language that does not 
recognize the incredible coercive measures that are being taken 
against the Ukraine by the Russian Federation.
    So, why did we and the rest of the West not get more 
engaged when those measures were taking place and say, ``These 
are violations of that Trilateral Agreement and other 
agreements that have been had''?
    Ambassador Nuland. We have made clear, consistently, both 
publicly and privately, that the coercive actions of of Russia, 
not only against Ukraine, but also against Moldova and Georgia, 
are violations of many undertakings that they have made, 
including Helsinki Principles and, in some cases, WTO 
obligations. And we will continue to be absolutely clear about 
that.
    More importantly, what we have been doing is trying to work 
with Ukraine to get it on a path of increasing economic 
independence and self-sustainment. Ukraine is vulnerable to 
pressure from the outside, because it has not done what it 
needs to do in terms of taking reform steps in its economy----
    The Chairman. I do not mean to interrupt you, Madam 
Secretary. I am all for creating a more prosperous, stable, and 
economically viable Ukraine, but in the interim, while we are 
seeking that goal, Ukraine is very susceptible to being pounded 
on by the Russian Federation in the manner in which it has 
been. And, while we may register protests, it seems to me, for 
example, that if there are WTO violations, we should not be 
registering protests, but actually following WTO violations and 
pursuing those to be ultimately achieved, in that setting as 
well as others.
    You mentioned in your opening statement that the Department 
remains open to a wide range of possible reactions, depending 
upon how the Yanukovych government continues to act, 
particularly with regards to the protestors. Now, I believe 
that supporting sanctions and visa restrictions are among the 
options that should be seriously considered if, in fact, we 
continue to see violence used against individuals who 
peacefully demonstrate in their country to express their 
opposition to the government's views and who want their human 
dignity. Are those elements of options that the State 
Department is willing to consider?
    Ambassador Nuland. Mr. Chairman, all tools of government 
are on the table, including those.
    The Chairman. I would like to hear from you, Mr. 
Secretary--I appreciate what you said, but what more can be 
done to assist and support journalists and civil society 
actors? As the Yanukovych family takes over TV channels and 
newspapers, and intimidation of independent journalists 
increases, what support are we directly providing, or can we 
provide, to the free media in the Ukraine? Are the Ukrainian 
services of Voice of America, Radio Free Europe, Radio Liberty, 
providing the appropriate information and direction in a 
country that increasingly seems to have its government clamping 
down on what is a free media?
    Mr. Melia. It is an important and appropriate question, Mr. 
Chairman.
    We have--the U.S. Government, writ large--provided, over a 
number of years, financial assistance that enables the 
professionalization of journalism in Ukraine. Media in Ukraine 
faces many of the same economic survival challenges that media 
outlets do across the world today. In addition, there is 
political pressure on advertisers to stay away from media 
outlets that are critical of the government, and that creates a 
new dimension of difficulty for them.
    So, our programs have supported online media outlets, the 
kinds of media watchdog organizations that I quoted earlier. 
The Institute for Mass Information is a beneficiary of some 
U.S. Government assistance. And, as I do when I travel to 
Ukraine, and others do, we make a point of visiting those 
outlets, doing our interviews with them, as well as with 
others, showing that we know who they are and we respect their 
independence. So, there is a variety of things that we can do, 
politically----
    The Chairman. Do you speak to VOA, Radio Free Europe----
    Mr. Melia. Yes, these are very valuable. They continue to 
provide important voices of honest reporting that is accessed 
by the Ukrainian people. It is very important to continue those 
services.
    The Chairman. Are we intending to send any election 
monitors, or to give resources to entities that have long been 
established as election monitors in countries?
    Mr. Melia. OPORA, which is the network of domestic election 
monitors in Ukraine that has been supported, trained by the 
National Democratic Institute since the mid-1990s, has been 
very active on the ground around the recent elections. They 
provide important honest reporting. It complements the work of 
the OSCE's Office of Democratic Initiatives and Human Rights, 
which has also monitored these processes, and gives us a huge 
wealth of information that enables us to comment in an informed 
way about the election processes.
    As you recall around the parliamentary elections a year and 
a half ago, we said that the elections represented a step 
backward from the quality of the election that brought Viktor 
Yanukovych to office in 2010. And that was based on the 
findings of the ODIHR mission that was there and of the 
domestic monitors led by OPORA. They continue to be very brave, 
very active, very honest watchdogs, and we continue to support 
them financially and politically.
    The Chairman. Well, let me just say, before I turn to 
Senator Corker, that if the Yanukovych government continues to 
act against its citizens as we have seen thus far, then I am 
not sure that we will wait for the State Department to look at 
sanctions and visa revocations against those committing such 
acts. The committee, and certainly the Chair, is going to 
entertain legislation that will do exactly that.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And again, thank you both as witnesses.
    I think that many of us, after watching the administration 
throw itself in Russia's arms during the Syrian conflict, have 
watched, with big question marks, relative to what we are 
actually willing to do to end up with a foreign policy that may 
be a counter to where Russia is.
    Last summer, when Russia placed these economic extortions--
put those in place in Ukraine on exports--do you think that, 
had the United States stood more fully beside Ukraine, they 
might have, maybe, had greater strength and been more willing 
to go ahead and side with the association agreement, versus 
taking the steps that they took?
    Ambassador Nuland. Senator, I think there were many reasons 
why President Yanukovych decided to take a pause after spending 
6 months advertising and encouraging his people to want to go 
to Europe. One of the main concerns that we had throughout the 
fall, as we watched the preparations, or lack thereof, by the 
government for the Vilnius summit, was the vulnerability of the 
Ukrainian economy, not only, and not even primarily, because of 
the pressure some of the big companies came under from their 
northern neighbor, but because of years of financial 
mismanagement of the economy and lack of willingness to really, 
as I said, roll up sleeves with the IMF and fix some of the 
fundamental problems. So, the degree to which Russia had the 
ability to bring Ukraine under economic pressure was very much 
a symptom of the fact that Ukraine was so economically fragile. 
We worked very intensively with the Ukrainian Government 
throughout the summer and fall to try to get them back into a 
dialogue with the IMF. I was involved with that. Secretary 
Kerry was involved with that. They did make some initial 
efforts, but they were nowhere near the kinds of intensive 
consultations that the IMF would have needed, to be supportive. 
And we began ringing the alarm bell increasingly loudly, 
throughout October and November, that, without more economic 
stability, in the event that Ukraine signed, the pressure 
could, in fact, be very, very dangerous for Ukraine, which was, 
at that point, within weeks of financial default.
    So, our position all the way through was that IMF reform 
and the EU Association Agreement needed to go hand in hand.
    Senator Corker. Yes.
    Ambassador Nuland. But, unfortunately, that did not prevail 
in Ukrainian thinking.
    Senator Corker. So, look, I appreciate the effort that you, 
personally, have put forth, and I know you have placed a lot of 
emphasis on this, especially in the last several months. But, 
why did we not criticize Russia openly and strongly when they 
put forth this economic coercion they put forth? Why did we not 
do that? It just does not seem like the place the United States 
would typically be when a country basically extorts another 
country, a country that we are trying to work with, a country 
that is so important to shaping that part of the world. Why did 
not we speak out strongly when that occurred?
    Ambassador Nuland. Senator, we certainly did. Secretary 
Kerry did. I did. I testified before the European Subcommittee, 
in November, and spoke out quite forcefully with regard to what 
Russia was up to. We also spoke to them privately throughout 
this period.
    Again, there were a lot of vulnerabilities on the Ukrainian 
side, as well, but nobody condoned what Russia was up to. And 
we do not, today.
    Senator Corker. I will just have to say that the 
administration has a big megaphone, and it was not used in this 
case.
    Let me just say along those same lines, I think many of us 
are really disappointed that the administration did not come 
forth with a list--the Magnitsky List--that we all expected to 
be out by the end of this year. Can you tell us what is 
happening, between us and our relationship with Russia, where 
we continue to turn our head, and we do not do those things 
that are in law that Congress has put forth? What is keeping 
the administration from going ahead and naming people--we are 
hearing names on the list that are supposed to come out, and 
somehow they are tied to this and they are tied to other 
things. What is it that is keeping the administration from 
doing those things that, under law, it is supposed to do, 
relative to Russia?
    Ambassador Nuland. Well, Senator, as you know, we submitted 
our Magnitsky report in the middle of December, as we were 
required to do. We are continuing to look at names that could 
be added to the list, and we will continue that process in the 
weeks ahead.
    Senator Corker. Well, I think history is on our side, and I 
think that, eventually, Ukraine will associate itself with the 
West. But, I will just have to say, as an observer, as somebody 
who has been fairly deeply involved in foreign policy over the 
last 7 years, what has happened between us and Russia ever 
since August seems to have affected our ability to weigh in on 
issues that are clearly in our national interest and clearly in 
the West's national interest. And I know that, again, you 
certainly have put forth tremendous effort, over especially the 
last several months, regarding this issue. But, Ukraine is an 
incredibly important country. It is a country that, if we can 
cause them to more fully associate with the West, could well be 
the thing that helps shape the way policies are inside Russia, 
itself. It is an incredibly important country.
    And, while I appreciate your efforts, and I certainly 
appreciate Senator McCain and Murphy being there at an 
incredibly important time, I do not think that our country has 
put forth policies, nor stood up in a way that it should in 
recent times, at a moment in time where there was a possibility 
of something happening right now that could have been 
incredibly beneficial to the people of Ukraine, beneficial to 
us, as a nation, and beneficial overall to Western values.
    But, I thank you for your efforts and I look forward to 
continuing this dialogue.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here this afternoon.
    I wonder if one of you could speak to the opposition that 
has been demonstrating, and if they have a coordinated strategy 
for what they want to accomplish, short of the association 
agreement, and are they seeking to win power in the elections? 
What is their real interest, here, and how successful do you 
think they can be?
    Ambassador Nuland. I would say that the events of November 
and December have certainly been unifying for the opposition, 
both in terms of its obligations, as it sees it, to the 
Ukrainian people and to try to meet their aspirations, but also 
in terms of their ability to work together. In the 
conversations that we have had with them, they are focused on 
presenting a united slate for the 2015 elections, they are 
focused on protecting the electoral environment and the free 
media environment between now and then, which, as I said, is an 
area of quite a bit of concern as we see a slow and steady 
effort to poison the democratic body politic across Ukraine. 
So, they are very much focused on that and trying to ensure 
that they expose efforts to intimidate NGOs or journalists or 
activists or any of those things, or otherwise dismantle the 
structures of a free electoral environment.
    They are also focused very much on the economy, because 
they know that if the current government does not take the hard 
steps to engage with the IMF and heal the systemic and 
structural problems in the Ukrainian economy, that anybody who 
wins the elections will inherit that problem. So, they are 
focused very much on trying to understand Ukraine's problems, 
trying to understand what this very nontransparent deal with 
Russia may do, over the medium and longer term, to Ukraine's 
choices so that they can present an alternative to the 
Ukrainian people.
    Mr. Melia. Can I add one point to that, Senator----
    Senator Shaheen. Sure.
    Mr. Melia [continuing]. To broaden it beyond the political 
opposition, the parties who are seeking to win a majority and 
control of the government?
    Most of the people that came out in the Maidan after the 
announcement on the European integration was announced did not 
come out with partisan motives. In fact, most of them are not 
associated with one or another political party. They were 
people that were angry and frustrated that what they thought 
was a trajectory in fits and starts toward European integration 
being upended abruptly by their President. So, they came out to 
express their unhappiness with that. And the people who 
initially organized it--there was not a master plan, because 
they did not anticipate the announcement. But, over the weeks, 
it has become more and more organized, more and more kinds of 
groups have come out and participated, including political 
parties. But, most of the people that came out in those 
demonstrations were not party-oriented. And I think that speaks 
to a broader longing in the Ukrainian people for modernization, 
for fundamental freedoms, for European integration. And whether 
the alternative political parties on the scene will guarantee 
that or provide that, I think, remains for those parties to 
demonstrate. And they have not done--you know, they are working 
on that, but it is not a done deal yet.
    So, I think when we think about opposition to the 
government, we need to think about it more broadly than in 
partisan political terms.
    Senator Shaheen. I do not disagree with that. I am just 
thinking about where they go from here, in terms of those 
demonstrations, because just demonstrating, as you point out, 
is not going to solve the problem. We have got to figure out 
what happens next and what more can we do, in the United 
States, to help move to the next stage of how to address the 
situation there.
    Mr. Melia. Well, let me speak up a bit for Ukrainian 
sovereignty, because that is ultimately what this is about. And 
it is partially in response to Senator Corker's earlier 
comments that I would say we need to keep in mind that this is 
about respecting Ukrainian sovereignty, letting Ukrainians work 
this out, to the extent they can. We do not want this to be a 
tug-of-war with Russia over Ukraine. We are trying to 
demonstrate a different opportunity. It is not just East or 
West, us or them. This is about a completely different model. 
We are not going to bludgeon or pressure the Ukrainians into 
associating with us. The Russians may want to do that. It is 
not in our interests to do that.
    We have an open door to the West, we provide all kinds of 
long-term opportunities for them, and the Ukrainian Government 
can either choose to be bullied by one of its neighbors or they 
can choose to go through the open door to the West. That is the 
choice that has been presented to the Ukrainian people. There 
is a short-term response to pressure that we have seen the 
President of Ukraine do. There is a longer term decision to be 
made by the Ukrainian people, through their political process, 
which we hope will play out over the next year and beyond, in 
which these kinds of things can be debated and discussed 
publicly, and people will make their decision for who they want 
to govern them, based on the policy choices they present.
    We cannot insist that they do what we want. That is not the 
approach that we are offering them. We are offering them a 
chance to be a sovereign, independent country that makes its 
own decisions.
    Senator Shaheen. Well, and certainly I appreciate that. 
What I am really asking is, What more can we do to help ensure 
that they have that opportunity? Because that is the real 
challenge.
    Let me ask a different question, because I do not want this 
panel to end without asking about Yulia Tymoshenko and what her 
status is and whether we think there is any chance that she is 
going to be released before the elections in 2015--and again, 
what more we and the European community and the Ukrainian 
people might do to help ensure that that happens.
    Ambassador Nuland. Senator, we raise Mrs. Tymoshenko's 
status in every meeting with every Ukrainian that we have. I 
have personally spoken to President Yanukovych about it in both 
of the long and intense meetings I have had with him.
    We are continuing to encourage the Ukrainian Government to 
release her to Germany for the medical treatment that she so 
desperately needs. We have also made the link that this would 
send a very strong signal to the world about their commitment 
to a European path and to meet those final requirements of the 
EU; and it would probably have a positive economic impact, as 
well, on the Ukrainian economy. But, to date, the President has 
not seen fit to take those steps.
    Senator Shaheen. Thank you.
    Mr. Melia. And I should mention that I have visited Mrs. 
Tymoshenko in her hospital prison in Kharkiv, in the eastern 
part of Ukraine, and both our recent Ambassadors, both 
Ambassador Tefft and Ambassador Pyatt, have also been out there 
to demonstrate our--at a very serious way--our concern for her 
situation. And, along with our European colleagues, who have 
the lead on the EU association agreement, obviously, this has 
been a central part of that discussion. This has been very 
central to our engagement and the Europeans' engagement with 
the Government of Ukraine.
    Senator Shaheen. Thank you.
    The Chairman. Before I call on Senator McCain, let me just 
say, I do not think you meant this--or maybe you did. I agree 
that we all respect Ukrainian sovereignty. We are not seeking a 
tug of war with Russia. But, there is a difference between an 
open door, as you described it, full of opportunity for the 
Ukrainian people, that the United States and the West presents, 
and the economic coercion and intimidation that the Russians 
pursue. And pushing back on the economic coercion and 
intimidation, in my mind, is not a tug of war, it is creating 
the space for Ukrainians to decide their own future.
    Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman. I want to 
associate myself with what you just said.
    Mr. Melia, this is not a high school student-body election, 
this is a country that wants to be European. They do not want 
to be Russian. That is what this is all about.
    That is what EU means to them. And the Russians have used 
energy, they have even cut off chocolate, they have bullied, 
they have supported the corruption, which is rampant in 
Ukraine. My colleagues may not know that the son of the 
President of Ukraine was a dentist, is now a billionaire, lives 
in a $100 million home.
    So, what this is all about, sir, is not about the Ukrainian 
people decide for themselves, this is about whether we will 
stand up for the Ukrainian people, who have been brutalized in 
demonstrations. The incarceration--I am glad you went to see 
Yulia Tymoshenko. But, the fact is, she should not be in 
prison. That is fact. And so, I am somewhat taken aback by 
your, ``Well, it is sort of up to the Ukrainian people.'' We 
want to be assisting, morally, the Ukrainian people for seeking 
what we want everybody on this earth to have. And so, it is not 
just up to the Ukrainian people. They cry out for our 
assistance and our moral support in a struggle which is totally 
unfair, which has been characterized by brutal crackdowns of 
demonstrators, and, recently, some leaders that I met with are 
now hospitalized. So, you are either incredibly naive or you 
are misleading the committee, one of the two.
    Secretary Nuland, I want to thank you for what you did. 
Senator Murphy and I had an incredible experience there. The 
people of Ukraine appreciated, very much, your moral support 
that you provided them. And I was very proud to have you as our 
Nation's representative, providing the moral support to the 
people who were demonstrating in freezing cold weather, 
incredibly difficult conditions.
    So, I guess my first question is, to you, Secretary Nuland, 
Is not it true that the Russians have bullied, they have used 
energy, they have used embargoes on certain products, including 
chocolate, and they have--that Mr. Putin really, really 
believes that Russia without Ukraine is an Eastern power, and, 
with Ukraine, is a Western power? And there is a lot at stake 
here, and it is in United States national security interests. 
And maybe--as Senator Corker pointed out--maybe we ought to be 
standing up to the Russians and supporting these people, 
including a list, if it is necessary, of sanctions, in the case 
of further violence inflicted on the demonstrators. Would you 
agree with that?
    Ambassador Nuland. Certainly, we have been absolutely clear 
and we would agree with Senate Resolution 319 that the 
Ukrainian people and their right to peaceful assembly must be 
protected at all costs. And we have been very, very clear with 
the government, not only at my level, but at the Secretary of 
State's level, Secretary of Defense's level, and other people 
who have been in contact, that any further serious efforts by 
the government to repress their own people will be met with, 
with a firm response by the United States.
    Senator McCain. And would sanctions be one of the 
considerations?
    Ambassador Nuland. As I said, Senator, that and other tools 
are on the table; yes.
    May I just make a point about the choice that Ukrainians 
have to make? I think we are all making the same point, which 
is, it is in United States interest to help the people of 
Ukraine preserve the opportunity to have a choice for a 
European future. And that is what we have to do, particularly 
as we head toward these elections. That is about speaking out 
against further violence, that is about supporting a free, fair 
media environment, a free, fair electoral environment, so that 
they can actually judge this government and its behavior at the 
ballot box----
    Senator McCain. So, it is not a tug of war. It is standing 
up for the principles of the--we want every free people 
throughout the world to be able to determine their own future 
without having demonstrators beaten up, without embargoes, 
without the energy card being played to cut off energy in the 
middle of the winter, as happened in the past. And this is all 
about Mr. Putin's desire to restore the old near abroad, the 
old Russian empire. And he has done the same thing in Moldova, 
Latvia, Estonia, Lithuania, and all around the periphery of 
Russia. And it is part--as Senator Corker pointed out, it is 
part of the very aggressive behavior that Vladimir Putin 
displays, and we reward his Secretary, Mr. Lavrov, with funny 
little gag gifts. I do not get it.
    I would like to, again, recognize Boris Tarasyuk and also 
the Ukrainian Ambassador, Ambassador Motsyk, who is here also.
    Again, I would like to ask you, Secretary Nuland, Do you 
think that there is a path now for Yanukovych to allow a free 
and fair election? And what do you make of the decision of the 
upper court that says that Vitali Klitschko is ineligible for 
running for President in 2015?
    Ambassador Nuland. Again, Senator, I think when you ask how 
we can help, how the EU can help, it is to focus our attention 
on ensuring that the electoral environment is free and fair. 
That is going to be a very, very difficult task, given these 
moves that we are already seeing to intimidate journalists and 
to constrict the free media environment, to manipulate local 
electoral councils, these kinds of things. So, the assistance 
that we are putting into Ukraine--and we are increasing it in 
the areas of free media and electoral support--will all be in 
the direction of trying to prevent efforts to pervert the 
electoral environment before 2015.
    With regard to the current ongoing court situation for Mr. 
Klitschko, this is a very familiar playbook in this part of the 
world, to try to use the courts to manipulate the slate of 
opposition candidates, et cetera. We are watching this case 
extremely closely. We had observers in the court today from our 
Embassy in Kiev.
    Senator McCain. Thank you.
    Mr. Chairman, again, I want to say that we thank you for 
what you did in Ukraine. The people were very grateful. And I 
was very proud to join Senator Murphy on what was, for me, a 
truly unforgettable experience. We thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see both of you here.
    I thank Senator McCain for allowing me to join him on what 
was really an amazing visit to see hundreds of thousands of 
people on that square, also knowing that those numbers were in 
the tens of thousands before the crackdown, and it was in the 
face of that brutal activity from the administration that 
people poured out into the streets in record numbers and, 
although the numbers have diminished, are still pretty 
substantial in the past few weeks.
    I want to just echo the comments of Senator McCain. I do 
not think Yanukovych can win a free and fair election, no 
matter what choices, what tacking to the left and to the right 
and to the East and to the West he may do, if it is truly an 
open election. And, obviously, our most important task here, if 
we want to truly support the Ukrainian people, is to do 
everything within our power to track these individuals, once 
they leave the Maidan, once they go back home, to make sure 
that they are not quietly spirited away, imprisoned, 
intimidated so that they do not participate in the 2015 
elections.
    Yanukovych is wrong to believe that there are no strings 
attached to this deal with Russia. He looks at the price that 
he was going to have to pay to do a deal with the EU and the 
IMF, and he just thought that it was too high, given the 
already difficult electoral prospects he faces in 2015. And he 
perceives that there is a lower price for him, in the short 
run, to do the deal with Russia. And, of course, that is not 
true, ultimately, though Russia may not impose strings at the 
outset, will all of a sudden start to meddle, on a weekly and 
daily basis, in the affairs of the Ukraine once they get their 
financial mitts into the country.
    But, it strikes me that, at some points during this 
process, both the EU and the IMF have acted as if there was not 
a choice for the Ukraine to make, that they were sort of used 
to doing deals--in the IMF, for instance; in the EU, to an 
extent--were used to doing bailout packages and financial 
packages with countries in the EU that did not have a choice. 
And, you know, Yanukovych greeted Senator McCain and I with 
about an hour-and-a-half lecture on all of the abuse that 
Ukraine has taken from the EU, and most of his litany was 
without merit.
    But, my question is this. Is there more that can be done, 
on behalf of the EU and the IMF, to try to work with the 
Ukraine in the coming months to answer some of the concerns 
which they may have that are legitimate, recognizing that this 
is not a zero-sum game, that they do have an alternative, and 
that alternative will continue to get sweeter and sweeter as 
the conditions get tougher and tougher from the IMF and the EU? 
And what can the United States do to work with the IMF and the 
EU to try to help answer some of the legitimate concerns that 
may come from Ukraine?
    Ambassador Nuland. Well, thank you, Senator. And again, 
thanks to both of you for your leadership on that vital 
weekend. I really do believe that having both of you present in 
a bipartisan way on the square that weekend may have prevented 
violence.
    First, to your point about the Russian bailout, if I may. 
You know, nobody knows what the terms really are, because they 
were not made transparent to the public, and certainly not to 
the Ukrainian public. And I would, as we do with the 
Ukrainians, draw your attention to the fact that one of the 
terms is that it will be renegotiated every 3 months, which, 
again, means that, at every 
3-month period, Ukraine could conceivably face default again, 
unless it goes down the tougher-medicine-but-better-reward 
track of the IMF.
    I think if, in fact, we have a Ukrainian Government that is 
willing to come back into a serious conversation with the EU 
and the IMF, what we need is a phased roadmap of restoring 
Ukraine to economic health, as the EU also works on how the IMF 
deal and the EU's DCFTA might mesh together to ensure that 
Ukraine has other options than its extreme dependence on the 
Russian market. And that is what the EU is offering, but it 
requires some tough steps, and this government has not been 
willing to take them.
    Senator Murphy. For all of the attention as to what did not 
happen at the Eastern Partnership summit, something did happen, 
which was that Georgia and Moldova, under very similar 
pressure, decided that they were going to move forward with 
their association with the EU. There is going to be a process, 
here, where the Ukraine looks to see what happens in Georgia 
and Moldova, Ukrainian citizens look to see what happens to the 
economies of Georgia and Moldova. And the look back will go the 
other way, as well; people in Georgia and Moldova are going to 
watch to see what happens in the Ukraine, having made a 
different decision.
    What can the United States do, what can the international 
community do, to stand with Georgia and Moldova to make sure 
that they are a shining example of what good can occur, both 
politically, from a human rights perspective, from an economic 
perspective, when you make the choice to join with the EU?
    Ambassador Nuland. Well, as you said, Senator, if all goes 
well for Moldova and Georgia, they will be able to sign both 
agreements, perhaps as early as next year, and, certainly in 
the case of Moldova and maybe even in the case of Georgia, be 
enjoying visa-free travel and DCFTA rights with the EU before 
the end of 2014. That will completely transform the economic 
opportunity for those countries, when people across the country 
can trade freely. And it will also, we believe, have an impact 
on thinking in the separatist area of Transnistria, in the 
occupied areas of Abkhazia and South Ossetia, as they 
understand that their governments are offering a path, an 
opportunity to work with Europe; whereas that they had not had 
before. So, it is an extremely positive development.
    We are working with Moldova to try to diversify their 
economic base. Even as the EU opens markets, we are working to 
open U.S. markets, working on reverse trade, delegation support 
from the Commerce Department. We are also working on energy 
independence for Moldova. Secretary Kerry, as you know, made a 
stop in Moldova to give them a boost. Similarly, with Georgia 
we are very focused on efforts to destabilize minority areas 
and other parts of Georgia, which is part of the pressure 
playbook. I was in Georgia, about a month ago, to encourage the 
government and the opposition, now that they have had good 
elections, to come together around a strong economic program, 
and to take full advantage and speed up their integration with 
the EU, including doing what they need to do to get visa-free 
as soon as possible.
    Senator Murphy. Thank you.
    Mr. Chairman, just one last comment, which is that we are 
incredibly well-served by you, Secretary Nuland, but also by 
our Ambassador there. Ambassador Pyatt, under very difficult 
circumstances, has acquitted himself very well, and it is, 
frankly, an advertisement for the importance of this committee 
moving very quickly and expeditiously on nominations, because 
we were able to get him nominated, put in place before the 
summer break, which gave him enough time to develop 
relationships that have come in very handy in the middle of a 
crisis. And so, I would commend the chairman for the way in 
which he has moved nominations. In this case, it really made a 
difference.
    The Chairman. Thank you.
    One last question, Madam Secretary. Analysts have asserted 
that Russia is trying to obtain control over critical 
infrastructure--Ukrainian infrastructure, that is. Do we have 
any information or idea of whether the Russians have acquired 
control over critical Ukrainian infrastructure as a result of 
the Putin-Yanukovych deal?
    Ambassador Nuland. Senator, as you know, this has been part 
of the 20-year struggle of Ukraine for sovereignty, efforts to 
resist outside purchase of key critical infrastructure. 
Frankly, we do not have the details on this Ukraine-Russia 
deal. The Ukrainian Government tells us that they have not made 
those kinds of concessions, but we are not in a position to 
independently verify that.
    The Chairman. Well, I thank you both for your testimony and 
your service. I can see that your time as the State 
Department's spokesperson has honed the conciseness of some of 
your responses. And so, we will look forward to engaging with 
you in other parts of your portfolio.
    And, with that, you are both excused from the committee's 
hearing and we will bring up our second panelist, who needs, 
really--

[Pause.]

    The Chairman. Let me say, as I said at the outset, Dr. 
Brzezinski needs no introduction, certainly not to this 
committee. Suffice it to say that he sees the world as a grand 
chessboard, as reflected in the title of one of his many books. 
He is, in my view, one of the world's most insightful foreign 
policy analysts. He brings to the table a clear-eyed 
geopolitical view. And, as they say in chess, he sees the whole 
board.
    We appreciate your willingness to share your insights and 
your expertise with the committee. Your full statement will be 
included in the record, Dr. Brzezinski, and we invite you now 
to share your thoughts.

 STATEMENT OF DR. ZBIGNIEW K. BRZEZINSKI, FORMER U.S. NATIONAL 
 SECURITY ADVISOR, COUNSELOR AND TRUSTEE, CENTER FOR STRATEGIC 
           AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Brzezinski. Thank you very much, Mr. Chairman, 
Senators. I am most impressed by the work you have been doing 
on this issue. I have listened to the earlier part of this 
testimony here, and it seems to me that all of you appreciate 
the historic, as well as the strategic, importance of the issue 
that we are discussing.
    My own general message is simple. A democratic, sovereign, 
and European Ukraine is what the Ukrainian people want and 
deserve. Such a Ukraine will encourage Russia to become an 
important post-imperial partner of the West as a whole. And 
that is a very important strategic point. Hence, support for 
Ukrainian aspirations is not political warfare against Russia, 
but is, in fact, favoring Russia's long-term interests. And we 
have to keep that in mind, that larger framework.
    A Eurasian Union, such as the one that Putin aspires to 
create, held together by pressure and motivated by nostalgia, 
is not a long-term solution for Russia's own socioeconomic and 
geopolitical dilemmas. Hence, sooner or later, the current 
authoritarianism driven by imperial ambitions in Russia will 
fail, not only because Ukraine is hesitant and opposed; 
Kazakhstan or Uzbekistan are not eager to become, again, 
camouflaged colonies.
    With that in mind, let me make just a few general 
suggestions. And, conceivably, some of them may be redundant, 
because I do not have access to all that is going or is being 
discussed within the administration.
    First, my suggestion is that we should encourage all EU 
Parliaments to pass resolutions hailing the courage and 
determination of this new, younger Ukrainian generation which 
has shown itself to be so devoted to its new sovereignty, and 
we should express our strong support for it. And this should be 
done by other democratic assemblies as part of the historical 
record. It is important for the Ukrainian people to feel that 
they are not alone.
    We should also deplore all forms of blackmail, bribery, or 
pressure designed to limit Ukrainian sovereignty. Our 
admiration for the heroes of the Maidan should be clearly 
emphasized, and they should be conscious of our identification 
with them. And I know that some members of this committee have 
been in Kiev during the most dramatic moments.
    Ukrainian national patriotism is a recently reborn 
phenomenon, but it is fervent and it is authentic. Putin likes 
to say that Ukrainians are really Russians, but he overlooks 
one very simple fact: Today's Ukraine harkens back directly to 
Kiev's Russia. That is to say, to Kiev of 1,000 years ago in 
which the Kingdom of Rus, which is the Ruthenians, today called 
Ukrainians, was an authentic European entity. It is little 
known that the then-ruling King of France proposed that the 
princess, the daughter of the King of Ukraine, become his wife, 
and she traveled eventually to Paris and became the Queen of 
France. It is the Ukrainians who are the really authentic 
sources of Ruthenian, as well as Russian, identity. Ruthenians 
being the older word for Ukrainians.
    Secondly, we should encourage the emergence in Ukraine of a 
visible and standing committee for national unity and 
independence, with politically and effective, defined 
leadership that can engage, if the opportunity arises, in an 
ongoing dialogue with President Yanukovych regarding Ukraine's 
long-term future. We know for a fact that some oligarchs who 
support Yanukovych would be interested in a dialogue with the 
opposition. Not all of the oligarchs are devoted to the idea of 
Ukraine being essentially a subprovince of a larger empire, and 
they have their own interests in promoting Ukrainian 
independence and closer ties with the West.
    In brief, we should not strive to polarize the situation in 
Ukraine, but we should promote the opportunity for a serious 
dialogue with a political entity that authoritatively speaks 
for the will of the politically awakened Ukrainian nation, and 
encourage them also to prepare, perhaps, for the free elections 
in 2015, though it is not at all certain, at this stage, that 
they, indeed, will be free.
    Third, the United States should use its influence, as I 
hope it is using it, in IMF, in the World Bank, in the various 
G8 or G20 assemblies, to explore what could be done to help 
Ukraine expand its relationship with the EU while remaining 
Russia's good neighbor even under the currently contrived 
arrangements--not as a satellite; but, nonetheless, the EU 
should encourage whatever additional arrangements are feasible. 
And we should be exploring ways, if there are any, by which the 
WTO could help to expose economic intimidation, which is not in 
keeping with its rules, and communicate its sense of concern to 
the party responsible for generating it. Perhaps there could be 
some steps taken to facilitate preferential access for 
Ukrainians seeking to study and work in Europe.
    Fourth, we should keep in mind that the longer run issue 
is, What will Russia become as China increases its influence in 
the former Soviet Central Asia? We should keep reminding the 
Russian people and their leaders that we respect Russia's 
European identity and culture, and that Russia's true destiny 
is also to be a major European state in a larger democratic 
West. We should make it clear that we seek neither Russia's 
isolation nor fragmentation, but Russia's evolution to what is 
a genuine democracy.
    One way or another, that day will come. Putin stands in the 
way today with his nostalgic dream of a new empire called the 
Eurasian Union. But, the fact is that such a prospect is not 
realistic. None of the would-be members of the Eurasian Union 
truly desire to limit their sovereignty, to cede it to Russia, 
to participate in the creation of a new union which revokes 
memories of the recently disappeared union, not to mention the 
older-still Russian empire.
    In brief--and I conclude on this--we need a constructive, 
open-ended, long-term policy for Ukraine, as well as a long-
term option for Russia that may follow.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Brzezinski follows:]

             Prepared Statement of Dr. Zbigniew Brzezinski

    Mr. Chairman, Senators. My own general message is simple: a 
democratic, sovereign and European Ukraine is what the Ukrainian people 
want and deserve. Such a Ukraine will encourage Russia to become an 
important post-imperial partner of the West as a whole. And that's a 
very important strategic point. Hence, support for Ukrainian 
aspirations is not political warfare against Russia but is, in fact, 
favoring Russia's long-term interests. And we have to keep that in 
mind, that larger framework.
    A Eurasian union, such as the one that Putin aspires to create, 
held together by pressure and motivated by nostalgia, is not a long-
term solution for Russia's own socioeconomic and geopolitical dilemmas. 
Hence, sooner or later the current authoritarianism driven by imperial 
ambitions in Russia will fail, not only because Ukraine is hesitant and 
opposed; neither Kazakhstan nor Uzbekistan are eager to again become 
camouflaged colonies.
    With that in mind, let me make just a few general suggestions. And 
conceivably, some of them may be redundant because I do not have access 
to all that is going or is being discussed within the administration.
    First, my suggestion is that we should encourage all EU parliaments 
to pass resolutions hailing the courage and determination of this new, 
younger Ukrainian generation that has just shown itself to be so 
devoted to its new sovereignty, and we should express our strong 
support for it. And this should be done by other democratic assemblies 
as part of the historical record. It is important for the Ukrainian 
people to feel that they are not alone.
    We should also deplore all forms of blackmail, bribery or pressure 
designed to limit Ukrainian sovereignty. Our admiration for the heroes 
of the Maidan should be clearly emphasized and they should be conscious 
of our identification with them. And I know that some members of this 
committee have been in Kiev during the most dramatic moments.
    Ukrainian national patriotism is a recently reborn phenomenon, but 
it is fervent and it is authentic. Putin likes to say that Ukrainians 
are really Russians, but he overlooks one very simple fact: today's 
Ukraine harkens back directly to Kiev's Russia, that is to say, to 
Kievan Rus of 1,000 years ago.
    Secondly, we should encourage the emergence in Ukraine of a visible 
standing committee for national unity and independence, with 
politically and effectively defined leadership that can engage, if the 
opportunity arises, in an ongoing dialogue with President Yanukovych 
regarding Ukraine's long-term future. We know for a fact that some 
oligarchs who support Yanukovych would be interested in a dialogue with 
the opposition. Not all of the oligarchs are devoted to the idea of 
Ukraine being essentially a subprovince of a larger empire, and they 
have their own interests in promoting Ukrainian independence and closer 
ties with the West.
    In brief, we should not strive to polarize the situation in 
Ukraine, but we should promote the opportunity for a serious dialogue 
with the political entity that authoritatively speaks for the will of 
the politically awakened Ukrainian nation, and we should encourage them 
also to prepare perhaps for the free elections in 2015, though it is 
not at all certain at this stage that such elections indeed will be 
free.
    Third, the United States should use its influence, as I hope it is 
using it, in the IMF, in the World Bank, and in the various G8 or G20 
assemblies to explore what could be done to help Ukraine expand its 
relationship with the EU while remaining Russia's good neighbor, even 
under the currently contrived arrangements, though not as a satellite.
    And we should be exploring ways, if there are any, by which the WTO 
could help to expose economic intimidation, which is not in keeping 
with its rules, and communicate its sense of concern to the party 
responsible for generating it. Perhaps there could also be some steps 
taken to facilitate preferential access for Ukrainians seeking to study 
and work in Europe.
    Fourth, we should keep in mind that the longer run issue is what 
will Russia become as China increases its influence in the former 
Soviet Central Asia.
    We should keep reminding the Russian people and their leaders that 
we respect Russia's European identity and culture and that Russia's 
true destiny is also to be a major European state in the larger 
democratic West. We should make it clear that we seek neither Russia's 
isolation nor fragmentation, but Russia's evolution towards a genuine 
democracy.
    One way or another, that day will come. Putin stands in the way 
today with his nostalgic dream of a new empire called the Eurasian 
Union. But the fact is that such a prospect is not realistic. None of 
the would-be members of the Eurasian Union truly desire to limit their 
sovereignty, to cede it to Russia, or to participate in the creation of 
a new union which evokes memories of the recently disappeared union, 
not to mention the older-still Russian Empire.
    In brief, and I'll conclude on this: we need a constructive, open-
ended, long-term policy for Ukraine as well as a long-term option for 
Russia that may follow.
    Thank you, Mr. Chairman.

    The Chairman. Well, thank you very much, Dr. Brzezinski, 
for those insights.
    Let me ask you, in your book you suggest that Russia cannot 
be a democracy if it is an empire, and it cannot be fully an 
empire if it lacks control of the Ukraine. Is that a view that 
you think is driving Moscow's behavior toward Ukraine now?
    Dr. Brzezinski. Yes, I think; certainly the present 
leadership feels convinced that, without Ukraine, the 
recreation of some form of supernational union--or, call it, 
simply, an empire--is not possible. This is why it is such a 
strategic stake for Putin.
    What he underestimates, however, in my view, are the 
consequences of 20 years of independence, these consequences we 
saw so dramatically and so admirable on the Maidan, where that 
younger generation of Ukrainians who have grown up in an 
independent state stood up and said, ``No matter how cold or 
how difficult or how dangerous, we stand for independence, 
because we treasure our independence.'' What is less visible 
but is also true, that that kind of sentiment pervades 
increasingly the elites in such significant entities as 
Kazakhstan and Uzbekistan, but also in the other smaller former 
Soviet states.
    To put it simply and in very human terms, who does not 
prefer to be a President of his own country, or a general in 
his own army, or a foreign minister in his own government, or 
an ambassador in Washington representing his sovereignty rather 
than to be officials of an entity in which they are 
subordinate? This is a normal human reaction. Nationalism is a 
deeply contagious social force, and, once awakened, it is 
almost impossible to sweep it back into the box.
    And what we are now seeing in Ukraine is a long-delayed 
awakening. But, it was coming. One could see it during the 20th 
century. One could see it during the days of the Gulag and the 
Holomodor, the starving to death of millions of Ukrainians by 
deliberate decisions in Moscow. But, now it is a pervasing 
reality, and particularly among the younger Ukrainians. They 
feel themselves to be Ukrainians. And this is why Putin betrays 
such an abysmal historical ignorance when he says, as he did 
just a few weeks ago, that Ukraine and Russia are just but one 
nation. And, of course, the Russians are the older brother in 
that nation, according to him.
    The Chairman. And the flip side of that--and I share your 
views--but, the flip side of that, so we understand the 
totality of the importance of this, is that--could we ever see 
or perceive a democratization of Russia if they were--be able 
to achieve their goals of having Ukraine join with them in this 
sphere?
    Dr. Brzezinski. Well, I have no doubt that if Ukraine is 
suborned and subordinated, it marks a turning point and Russia 
becomes, in effect, an empire. My own personal view is that, 
first of all, I do not think that is going to happen, in total, 
even if there is retrogression today. And, secondly--and 
obviously this is speculative and is a question of judgment--my 
gut feeling is that Putin's nostalgia for the past, which 
drives this aspiration for a supernational union, is simply 
divorced from political and socioeconomic realities. Russia 
today is no longer an imperially motivated entity mindlessly 
seeking imperial status the way, let us say, the Nazis did in 
order to compensate for their defeat in the first World War. It 
is no longer driven by an ideology which demands 
supernationality as the basis for superpower status.
    There is a nationalist element in Russia to which he is 
appealing that is retrogressive, but there is also a new 
manifestation in Russia which is gradually becoming, in my 
view, more significant: the emergence of an increasingly 
internationally connected, internationally educated, in many 
cases, middle class, particularly in the major cities of 
Russia--Moscow, Saint Petersburg, others-- 
a middle class which increasingly identifies itself with more 
common Western values, including democracy, freedom of travel, 
freedom to read what one wishes, freedom to say what one 
desires, and freedom, eventually, to express one's political 
preferences. That is a new reality, and it is becoming 
stronger.
    So, my gut feeling--and I have been a student of Soviet and 
Russian affairs now almost all of my life--is that this quest 
for a supernational union is directly linked to the longevity 
of the President of Russia. And if he fades from the scene, for 
one reason or another, politically or physically, I think there 
is going to be an accelerated turn toward a redefinition of 
Russia's place in the world, for two reasons: one, which I have 
already mentioned--namely, the impulse of a middle class that 
sees itself part of the West and is increasingly educated in 
the West, in addition to traveling to it; and secondly, the 
extraordinary significant rise in the power and significance of 
China, and particularly now, increasingly so in Central Asia. 
The Russians are building, kilometer by kilometer, new roads 
spanning the former Russian Central Asia--roads, railroads, 
investments, increasingly matching and outstripping the 
Russians, investment in the real estate and in the natural 
resources of these newly independent states.
    Now, these states are ambivalent, because they are fearful 
of the Chinese, they are so huge and powerful. But, at the same 
time, they know that they create leverage which gives them room 
for self-assertion.
    I know the Presidents of the two most important Central 
Asian countries--Kazakhstan, extraordinarily rich in natural 
resources, and Uzbekistan, the center of Islamic self-awareness 
that is mixed with nationalism. Neither of these two leaders 
wants to be a satellite. In fact, for that reason, Nazarbayev, 
who is very careful in maneuvering between China and Russia, 
proposed to Putin--and Putin was smart enough to accept--that 
Putin's original name of the Eurasian Union be changed to 
Eurasian Economic Union, which was an attempt, of course, by 
Nazarbayev, to limit what that union really means. In other 
words, do not limit our sovereignty. Now, of course, it does 
not work that neatly. If you have economic domination, the 
other one may be adversely affected.
    But, my point simply is this. There is some support for 
arrangements for customs union and so forth, because it can be 
beneficial two ways, but there is, above all else, in the newly 
independent states, including Belarus--it does not have a 
notably good democratic record--there is a commitment in all of 
them toward self-independence.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Doctor, it is always impressive to listen to you and 
to get your insights on issues that are happening throughout 
the world; and certainly, in this part of the world, you are 
quite an expert. So, I thank you for your comments.
    And I know you listed a number of steps that should be 
taken to reinforce the Ukrainian people, and you have talked 
about the values that they share with the West, the values that 
middle-income people in Russia share with the West, and just 
the natural alliance that should be there.
    Many of us have watched the administration since August, 
and watch as we deal with Russia in ways that we do, and 
understand that the Russian people, in many ways, should be 
oriented toward us, and that there are issues of commonality 
that we should be pursuing. At the same time, as we watch what 
is happening, we also, it seems, see a deference to Russia, in 
so many cases, beginning with Syria stepping into their arms.
    And I know you were just talking about how we need to 
fertilize and we need to encourage the Ukrainian people to 
continue to move ahead. We hope there are going to be free 
elections. I know the standard there is for opponents to be 
arrested and not be available for election, which makes it more 
difficult. But, what would be your guidance to United States 
outward comments and policy relative to Ukraine right now, and 
pushback? And what effect does that actually have, if you will, 
on the Ukrainian people and in an outcome there?
    Dr. Brzezinski. I think we should learn from the experience 
of Poland's emancipation from Soviet control in the late 1980s, 
early 1990s. What emerged in Poland was a national movement for 
independence, somewhat like the Maidan, although Maidan has not 
institutionalized itself. In Poland, it became 
institutionalized in a so-called Solidarity Movement with a 
dramatic leader, who may not have been the most senior leader 
originally, perhaps not always the most intelligent leader, but 
the most effective political leader. And it was under his 
leadership that eventually that movement forced the ruling 
Communist regime to negotiate, to negotiate an arrangement of 
accommodation which then was transformed into, eventually, a 
democracy, a Western-type democracy of Poland today in the EU 
and in NATO.
    Ukraine needs a clear-cut national alternative. I know that 
there are a number of outstanding Ukrainian leaders who have 
participated in what has been transpiring, and some with great 
personal courage and sacrifice. But, the biggest sacrifice that 
needs to be made is that all of them, but one, have to agree on 
``a one'' that will be increasingly the symbol of an 
alternative. Because you are dealing with an entrenched regime 
which can use force and bribery to stay in power, and has 
Russian support. You need to have a figure that articulates 
your aspirations, symbolizes you, and becomes a focus of global 
attention.
    The second part of your question pertained to what you 
described as our deference to the Russians. I would take some 
exception to the word ``deference.'' I do not think we have 
really deferred to them. I know what I am about to say is 
controversial, but, frankly, I think that Russia's interference 
in Syria, to some extent, made it easier for us to avoid 
sliding into direct participation in a war which would have 
been very damaging to our interests and probably would have 
spread more widely and more quickly than is already the case. 
So, that is a question of judgment, and we may disagree on 
that. But, I think, in any case, what it illustrates is 
something more basic than that.
    Our relationship with Russia during the cold war was one of 
hostility. It was a non-zero-sum game. We win, they lose. They 
win, we lose. Today, in many parts of the world, the 
relationship is much more mixed. We do not like what they are 
doing in Ukraine, but, in the long run, I would like them to 
become like Ukraine and pursue the same path. There are many 
things they are doing elsewhere that we do not like, but we may 
need them, and we do need them in the Middle East. In fact, I 
think the chances of stabilizing the Middle East, including in 
the forthcoming conference, are greater if, in the process, we 
have with us, not only the Europeans, some of whom are very 
disliked in the Middle East as former colonial powers, but we 
also have with us the Russians, who, in some cases, are not so 
disliked, and the Chinese, who are increasingly being an 
influence in the Middle East, and they have a growing stake in 
a stable Middle East. And that kind of a coalition, I think, 
gives us a greater opportunity to pursue arrangements that 
mitigate and minimize the danger of conflict spreading out, and 
certainly reduces the necessity of us being involved in these 
conflicts directly. Because the fact remains that, if we become 
involved directly, some people may applaud us, some people may 
rub their hands with glee that we are getting stuck, but none 
of them are going to help us. And I do not think the United 
States is in any position now to duplicate the wars in Iraq or 
in Afghanistan with a direct military engagement in the Middle 
East.
    So, we do need some accommodations even with the Russians 
on some issues, just as we disagree with them on other issues--
today, for example, regarding what we were discussing.
    Senator Corker. I appreciate your point of view. But, as it 
relates to Ukraine, it was just outward economic extortion. 
Obviously that is not something that we, in any way, condone, 
regardless of the complexities of any situation. And yet, we 
really did not speak to that. And I think, for some reasons, it 
is because of the other elements that you just alluded to. I 
mean, I understand that relationships are complex, and there 
are many other things that are occurring. And regardless of how 
you view those when it comes to an issue like Ukraine, where 
there is no question it was black-and-white extortion, what 
should the United States do in those cases? Because it appears 
to me that we did ``not much,'' if you will----
    Dr. Brzezinski. I tend to----
    Senator Corker [continuing]. And I----
    Dr. Brzezinski [continuing]. Agree with you.
    Senator Corker. What is that?
    Dr. Brzezinski. I tend to agree with you on that aspect. 
This is why I mentioned, for example, in my testimony, that we 
should take a hard look at WTO rules. There are some countries 
in the WTO that have behaved that fashion, and we do not need 
even to name them right now, but we know who we are talking 
about. We should look at the rules and see what is not 
acceptable, in terms of formal behavior of WTO members who--to 
benefit from the fact that such organizations contribute to 
more fluid trade flows and greater access. And we can have 
opportunities for limited boycotts, limited bans, and so forth.
    I agree with you, it is not either black or white. You can 
have different combinations. But, we have to have a sense of 
balance about it. I do not favor, at the same time, a 
reigniting of the cold war, for example, with Russia, of the 
kind that we had with the Soviet Union; in part because we do 
need Russia in some other parts of the world, and in part also 
because Russia itself is changing.
    You heard from me a very sharp criticism of Putin. And I 
know that he is an authoritarian, and I know that what he 
wishes to create is not good, and I believe it will not 
succeed. But, I also know that, today in Moscow, you can read 
criticisms of the government, you can read newspapers that 
blast official policies, you can watch skits on television that 
ridicule the rulers, and so forth. We are dealing with a more 
complicated Russia today than the Soviet Union of the past.
    Senator Corker. Well, thank you, and I appreciate your 
service to our country and your continued involvement in 
helping us think through these complex issues.
    Thank you.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Welcome, Dr. Brzezinski.
    You know, for all his faults, Yanukovych is a pretty savvy 
politician, and he seems to be under the impression that he can 
somehow manage a short-term transition of economic aid in 
Russia with an eventual long-term association with the EU, and 
further seems to be under the belief that he can manage that 
eventual transition to Europe without severe repercussions from 
Russia; if he keeps them happy for a period of time, maybe they 
will not notice if he eventually enters into a roadmap to join 
Europe.
    And when we were there, I tried to translate the phrase 
``rip the Band-Aid off,'' which apparently does not translate 
very well into Ukrainian----
    [Laughter.]
    Senator Murphy [continuing]. And my point was, at some 
point, my impression is that you are going to have to deliver a 
very tough message to the Russians that you are going to join 
the EU, and you are going to have to potentially, as long as 
Putin is there, accept some of the very bad economic behavior, 
that Senator Corker talks about, coming along with it, unless 
we can stop it, as the United States and Europe, together.
    So, do you think that he is right, that there is a way for, 
without our intervention, the Ukraine to make the turn to 
Europe, in an overt way, without raising the ire of Russia in a 
way that will do great damage to their economy? Or, perhaps, do 
you think that Senator Corker is right, that, maybe with some 
intervention from the United States, we might be able to help 
manage that transition?
    Dr. Brzezinski. Well, we certainly should try, and we 
should certainly encourage the Ukrainians to try, themselves. 
Because, ultimately, this is not an issue which can be resolved 
by compulsion or pressure entirely from the outside. We can 
influence events, but we cannot really dictate them.
    My guess is--and I emphasis the word ``guess''--is that 
Yanukovych, in his gut, feels that if he moves toward the 
West--and part of it is also free elections that he will lose, 
and that is part of the difficulty. Now, it is not easy, or 
maybe not even productive, to speculate too publicly about how 
to manage that, but I will just draw you an analogy, again, to 
Poland, because it is relevant.
    I mentioned that Poland produced a movement that produced a 
popular leader, that they eventually sat down with a Communist 
regime which knew that it was losing because the Soviet Union 
was disintegrating, and they knew they had to somehow 
accommodate the new reality, and contrived free elections, 
which were free. And Solidarity won. And then Solidarity agreed 
to the erstwhile dictator in Poland who imposed on Poland, with 
Soviet approval, the marshal law, to be the first President. 
You know what I am hinting at.
    In other words, what the Ukrainians have to have is a 
viable source of political influence, but also political 
dialogue and some degree of elasticity in dealing with 
Yanukovych to see that as possible. But, may not be possible. 
It may not be possible. He may be too fearful. Look how 
stupidly rigid he is on the Yulia Tymoshenko case. He could 
have solved it just like that, without even too much fanfare, 
simply expelling her; not necessarily even just sending her to 
Germany for medical treatment, but simply saying, ``I am 
getting rid of her.'' All right, so she would be outside the 
country. Part of the problem would be solved. Perhaps the West 
would demand that she then be permitted to return and campaign, 
but that would be a bit of a stretch. But, he did not have the 
guts or the imagination to do that, because he is, I think, a 
little bit frozen in his anxiety that he might lose.
    But, I think it is worth a try, but a lot depends also on 
the maturity and flexibility, organizational skill, and 
charismatic appeal of the opposition, including its willingness 
to play the game, depending how it unfolds.
    Senator Murphy. Well----
    Dr. Brzezinski. One more sentence.
    Senator Murphy. Yes, yes, sure.
    Dr. Brzezinski. On one point, Putin's money is going to run 
out.
    Senator Murphy. Right.
    Dr. Brzezinski. So, this is a lousy economy. It is an 
economy from which funds are fleeing to the West. The new 
middle class is enriching itself, but look where it is 
depositing its money. There could be a crisis, in terms even of 
what Putin can do for Yanukovych. And he has to be careful not 
to use force on the Ukrainians. If he uses force on the 
Ukrainians, he will discover very quickly that he has bitten 
more than he can chew. These are tough people. They are not 
going to give up their independence.
    Senator Murphy. I wanted to ask you about the opposition. 
And I know you will not necessarily want to comment on 
individual political leaders in the Ukraine, but it struck me 
that there is--when you are on the Maidan, there is this huge, 
giant portrait of Tymoshenko; and yet, when you are actually 
talking to individuals there, there is not a lot of talk of 
individual political leaders. They are there for a variety of 
reasons, but most of which, as Tom Melia was mentioning 
earlier, are not connected to an individual political party. 
And there seems to be a disconnect between what those in the 
Maidan, who were there and who have left, want and what the 
political opposition is able to deliver.
    And the worry is, is that if we are really counting on 
political change in 2015 to ultimately deliver on the potential 
ultimate salvation of the Ukraine, folks out there may have 
expectations that the political opposition ultimately cannot 
make good on.
    So, how does--regardless of who ends up being the standard 
bearer, how does the political opposition try to capitalize on 
these fairly nonpolitical sentiments that are captured on the 
Maidan?
    Dr. Brzezinski. Well, first of all, by trying to create a 
broader national dialogue. Now, it may be that Yanukovych--in 
particular, his Prime Minister, who is very dogmatic--may not 
want to talk to them. But, there are a lot of other people in 
Kiev that are not committed to the regime, nor are entirely 
against it, who can be talked to. I could give you--but I would 
not do it now, publicly--the names of some oligarchs who I am 
sure would engage in discussion with the opposition; in part, 
because they are uneasy about the way things are shaping up. 
They resent the fact that this territory is not theirs 
exclusive, but a Mafia in Moscow has priority rights in what 
they claim to be their exclusive area. They know that greater 
opportunities shine in the West. They may be interested in 
alternative deals. They may also have access and sources of 
influence on Yanukovych. They may even be able to contrive--I 
am talking literally from the top of my head right now--some 
arrangement whereby the election is delayed for a while, but 
with an understanding of a process that, in the meantime, takes 
fruit and then leads to a transition, which is exactly what 
happened in Poland. The elected President that they elected 
from the previous regime lasted 1 year, and yet went 
peacefully, in the end.
    There are many ways you can skin that cat, but the 
political leadership in Ukraine has to be manifestly mature, 
but also symbolic. I am not going to mention names, but they 
cannot all be running for President against each other.
    Senator Murphy. Yes.
    Dr. Brzezinski. One of them has to be, and they have to 
make a calculation what is likely to be most effective.
    And do not forget, this movement is driven by the passions 
of the younger people, who relish the fact that they are 
independent. That is a whole new psychological reality. And the 
leader has to be, in a sense, somehow or other in tune with 
that mood, has to symbolize it most effectively. And if that 
manifests itself, that creates a new ball game. And, okay, they 
can perhaps arrest him, Yanukovych can be under pressure from 
Putin to arrest him, but it might not work.
    And do not forget, Russia is changing, too. I am not sure 
that everybody in Russia is crazy about trying to create some 
sort of a union in which there is going to be, internally, more 
opposition, and China, in the meantime, gains influence.
    Senator Murphy. Thank you.
    The Chairman. Dr. Brzezinski, thank you very much for your 
very insightful views and for giving us a sense of the entire 
field, as I like to call it. I grew up sitting in the cheap 
seats, but it gave you a view of the entire field, and it gave 
you a sense of what, in fact, is in front of you in terms of 
choices to be made. So, I think you have done this for the 
committee extraordinarily well.
    There is a reason that I called this hearing as the second 
hearing of this new session of the Congress, after South Sudan, 
because I believe in the importance of the Ukraine, in the 
urgency of protecting the civil society, that Senator Murphy 
saw for himself when he was there, and in the possibilities of 
what a sovereign Ukraine free from economic coercion can 
ultimately achieve. And I think it is in the national interests 
of the United States, as well as of the Ukrainian people, to be 
able to try to achieve those goals.
    So, we thank you for your testimony. We will continue to 
monitor the events in the Ukraine, with both the full committee 
and with our distinguished colleague.
    This record will remain open until the close of business 
tomorrow.
    And, with that, this hearing is adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


     Prepared Statement of Ukrainian Congress Committee of America

    Mr. Chairman and members of the Senate Foreign Relations Committee, 
thank you, on behalf of the Ukrainian Congress Committee of America, 
for giving us the opportunity to submit testimony today during this 
critical hearing entitled ``Implications of the Crisis in Ukraine.''
    The Ukrainian Congress Committee of America (UCCA), the umbrella 
organization, representing the interests of the over 1 million 
Americans of Ukrainian descent for close to 75 years, would like to 
express our community's gratitude to the Senate Foreign Relations 
Committee for your continued interest in the developments unfolding in 
Ukraine today, and for your steadfast support for stronger bilateral 
relations between the United States and Ukraine.
                               background
    The Government of Ukraine's recent decision to reverse its course 
on the signing of an Association Agreement with the European Union has 
led to massive pro-democracy rallies throughout the country and 
widespread condemnation from the Ukrainian American community. Though 
the catalyst for the nationwide protests has perhaps been the 
government's reversal of policy regarding Euro-Atlantic integration for 
Ukraine, the movement's spirit has become one of standing in defense of 
human rights, the protection of dignity, the eradication of corruption 
within society and the defense of Ukraine's independence from Russia's 
imperial ambitions. For the demonstrators, integrating with Europe and 
into Western institutions means not only assuring their economic well-
being and political security but also defining their own and their 
nation's political identity. Throughout Ukraine, the demonstrators have 
remained peaceful in their approach and resolve. Numerous acts of 
government sanctioned violence against the protesters, and subsequent 
attacks upon civic activists and media outlets, have sparked widespread 
concern among Ukraine's citizens for their personal safety and human 
rights.
    Acts of savagery, such as the beatings of innocent students on 
Ukraine's EuroMaidan (central square) on December 1 and December 11 
have no place in a civilized, democratic country. While condemnation of 
the violence has been heard worldwide, targeted violence and 
intimidation continues. The UCCA condemns any use of force and has 
repeatedly urged the Government of Ukraine to refrain from further 
violence against individual activists and the peaceful protesters 
gathered in Kiev and throughout Ukraine. As citizens of a democracy, 
Ukrainians have the expressed right to come together and collectively 
voice and defend their common interests. The UCCA has called upon the 
Government of Ukraine to respect the rule of law, conform to its 
international commitments and to uphold democratic principles, one of 
which is the freedom to assemble.
    The UCCA fully supports and grateful to the U.S. Senate for the 
passage of S. Res. 319. One clause therein emphatically states that: 
``in the event of further state violence against peaceful protestors, 
the President and Congress should consider whether to apply targeted 
sanctions, including visa bans and asset freezes, against individuals 
responsible for ordering or carrying out the violence.'' In light of 
the continued government sponsored violence, the UCCA feels that it is 
imperative that such sanctions be placed immediately in order to 
prevent further acts of violence against the protesters and 
intimidation of media outlets, journalists, and civic leaders.
                       geopolitical implications
    In the context of U.S. geostrategic interests, the current 
situation in Ukraine cannot be understood without recognizing its 
potentially far-reaching consequences for the world's security dynamic. 
The Putinesque neocolonialist policy of expanding a ``Russkiy Mir'' and 
the ever increasing, multivectored, political, economic, social, 
cultural and religious aggression and encroachment directed against 
Ukrainian sovereignty, can be directly referenced as the cause for 
Yanukovych's seemingly abrupt about-face regarding the EU's Eastern 
Partnership. The passionate yet peaceful response by the people of the 
Maidan to the attempts at recolonization has challenged contemporary 
notions of the state of European security. Russian behavior toward 
Ukraine is rightly viewed with alarm by our NATO allies, most 
particularly by those in Central Europe. It is understood to be a 
threat to the stabilizing transnational, trans-Atlantic security 
framework that first emerged in the years after the Second World War 
and expanded with the fall of the Soviet Union.
    For the United States, Ukraine's inclusion into these structures 
clearly serves our national interests. The security of the United 
States lies in the expansion of democracy, not in the appeasement of a 
failed empire intent on renewal. Furthermore, the United States has 
provided public and politically binding security guarantees including, 
but not limited to, the 1994 Trilateral Agreement which elicits, at the 
very least, Washington's engagement when Ukraine's security is 
threatened in exchange for Ukraine's commitment to its renunciation of 
its nuclear weapons and its ascension to NPT as a nonnuclear state. 
These assurances were and remain critical for Ukraine and they include 
U.S. support for Ukraine's territorial sovereignty and integrity, the 
nonuse of force and the freedom from economic coercion. Today, each of 
these security components is at issue.
                            recommendations
    The Ukrainian Congress Committee of America calls upon the United 
States to:

  <bullet> Enact the appropriate clauses of S. Res. 319 calling for 
        targeted sanctions against Ukrainian Government officials for 
        their corrupt practices;
  <bullet> Expand the ``Magnitsky Act'' legislation to include the 
        Yanukovych ``clan,'' their supporting oligarchs and security 
        forces as well as Russian officials who are actively 
        threatening Ukraine;
  <bullet> Freeze Russia's membership applications to OECD and other 
        international organizations;
  <bullet> Publicly condemn Russian economic aggression and its 
        consequent violations of the Tripartite Agreement, the CSCE 
        Final Act, WTO agreement and other international treaties and 
        accords as they affect Ukraine's territorial integrity, 
        stability and political independence;
  <bullet> Facilitate all possible unilateral and multilateral economic 
        assistance to Ukraine under circumstances ensuring its benefit 
        to the Ukrainian people, not to governmental functionaries;
  <bullet> Maintain U.S. Government spending on democracy programs and 
        continued civil society in Ukraine at 2013 levels;
  <bullet> Provide immediate emergency supplemental funding to counter 
        the regime's efforts to block the public's access to 
        information.

    The crisis in Eastern Europe and Ukraine specifically, will not 
simply go away. In an increasingly interconnected and economically 
interdependent world, the United States must take the lead in promoting 
international norms and consolidating geopolitical stability. It must 
work to facilitate the transformation of Russia's lingering imperial 
ambitions into ambitions of democratic statehood. Today, Russia's 
intellectuals and democrats look toward Ukraine and the EuroMaidan as 
an inspiration. With American support, a democratic, independent 
Ukraine can be that keystone of freedom in the region. However, unless 
Ukraine is safeguarded allowing it to integrate into Europe and its 
structures as its people wish, trans-Atlantic security is simply an 
illusion.
                               conclusion
    The UCCA stands in admiration of the hundreds of thousands 
demonstrating their commitment to the future of their nation. We are 
humbled by their fortitude and courage and we stand united with all 
Ukrainians gathered on the EuroMaidans throughout Ukraine who are 
freely expressing their desire for a democratic, European future!
    The Ukrainian Congress Committee of America, urges the United 
States Senate to continue assisting the people of Ukraine and heed 
their calls for support of their democratic and EuroAtlantic 
aspirations during this most critical juncture!
                                 ______
                                 

 Letter From the United Oppositions to the Senate of the United States

                                 Kiev, Independence Square,
                                                  January 12, 2014.

    Dear Members of the Senate: On behalf of the millions of 
Ukrainians, who are standing in an over 50 days protest against the 
authoritarian regime and for their European choice, democracy, 
fundamental human rights and freedoms, we, the participants of the 
Rally on January 12, 2014, express our sincere gratitude to our 
American friends, especially the U.S. Senate for your support.
    We highly appreciate the position of principles of the U.S. Senate, 
reflected in the Resolution of January 7, supporting the Ukrainian 
people. The Senate fairly condemned the violence against the peaceful 
demonstrators that happened on November 30, December 1 and December 11, 
2013, and clearly warned that in case of further use of force against 
the protestors, the U.S. should consider whether to apply targeted 
sanctions against individuals responsible for ordering or carrying out 
the violence.
    On the night of January 10-11 the anti-peoples regime has once 
again behaved aggressively and used violence against the peaceful 
demonstrators, injuring at least 11 people in Kiev. Yuriy Lutsenko, 
former Minister of Interior, well-known activist and the former 
political prisoner of this regime is severely injured. This very day in 
Kharkiv bandits directed by local authorities stormed Saint-Dimitriy 
Cathedral of Ukrainian Autocefalous Orthodox Church where protestors of 
Kharkiv Maydan found their refuge.
    Ukrainian Government moved to direct threats to the Church. So, on 
January 3 this year, Ministry of Culture warned in written Ukrainian 
Greek Catholic Church, which was repressed by Stalin's regime in Soviet 
times, about possible termination of its activity for making divine 
services at Maydan in December 2013-January 2014.
    Ministry of Education and Science is increasing illegal pressure 
and intimidation of students in order to prevent their participation in 
protests. Courts are pronouncing unconstitutional verdicts prohibiting 
citizens to exercise their right on peaceful gatherings.
    It is a high time to step from warnings to the targeted sanctions 
application against Yanukovych, his family and closest surrounding--all 
those involved in establishment of authoritarian regime in Ukraine, 
political repressions and selective justice towards Yulia Tymoshenko, 
Euromaydan activists and other opposition and public leaders.
    First of all we urge to introduce sanctions against those who 
issued and carried out criminal orders to beat up people and intimidate 
activists, or who criminally remained inactive on their wielded 
positions instead of defending the civil rights, namely: Viktor 
Yanukovych, Prime Minister Mykola Azarov, Minister of Interior Vitaliy 
Zakharchenko, Minister of Culture Leonid Novokhat'ko, Minister of 
Education and Science Dmytro Tbachnik, Secretary of the National 
Security and Defense Council Andriy Klyuyev, General Prosecutor Viktor 
Pshonka, Head of Kharkiv Regional Administration Mykhailo Dobkin, Mayor 
of Kharkiv City Guennady Kernes, judges and other officials involved in 
mass violation of human rights in Ukraine.
    We urge for application of the U.S. entrance ban, bank accounts 
freeze, proceedings against laundering of funds acquired through 
criminal means, arrest of real estate and other property and assets in 
direct ownership, belonging to family members or dummy firms.
    The evil must be punished. The truth should win!
                                 ______
                                 

 Responses of Assistant Secretary Victoria Nuland and Deputy Assistant 
    Secretary Thomas Melia to Questions Submitted by Senator Robert 
                                Menendez

    Question. There are recent reports of isolated, but disturbing, 
incidents of anti-Semitism and xenophobia in Ukraine. What, if 
anything, has the Embassy done to respond to these incidents? What are 
the lessons learned from years of fighting anti-Semitism in other parts 
of Europe and in the former Soviet Union that can be applied to 
Ukraine?

    Answer. The Department of State condemns anti-Semitism and 
xenophobia in Ukraine. We share your concern about recent incidents.
    Ambassador Pyatt has personally delivered the message to all of 
Ukraine's political leaders--those parties in power and in opposition--
that political parties must not just refrain, but refute any form of 
anti-Semitism or endorsement of violence against minorities.
    Our Ambassador and other officials at Embassy Kiev have played an 
active role in raising these incidents bilaterally with Ukrainian 
Government officials and other political players. They have also 
engaged with religious leaders and with civil society to promote 
religious freedom and human rights.
    The U.S. Special Envoy to Monitor and Combat Anti-Semitism visited 
Ukraine in November, meeting with government officials as well as 
Jewish community leaders. He saw signs of a reviving Jewish community, 
and open anti-Semitism is limited.
    Wherever and whenever minority groups face discrimination and 
violence, all of us must speak up and speak out. Governments must enact 
laws and policies that guarantee and promote religious freedom. 
Government and civil society, including religious leaders across 
faiths, must work together to promote tolerance and combat anti-
Semitism.
    We look forward to continuing to work closely with you and other 
concerned Members of Congress to combat anti-Semitism.

    Question. How have we targeted our assistance to Ukraine in recent 
years? To what extent have we sought to support democratic institutions 
and civil society, and how do we coordinate our efforts with the 
European Union?

    Answer. In recent years, U.S. assistance programs have focused on 
encouraging the development of a democratic, prosperous, and secure 
Ukraine, fully integrated into the Euro-Atlantic community. Major 
emphases include promoting democracy and human rights, including 
through support to civil society, independent media, and efforts to 
reform the justice sector; expanding access to HIV prevention, 
treatment, and care; securing the Chornobyl accident site; and 
facilitating energy efficiency and independence.
    In FY 2013, the United States provided more than $25 million in 
governance and democracy assistance. U.S.-funded training teaches 
nongovernmental organizations about management, financial 
sustainability, advocacy, and monitoring the public sector. Technical 
assistance to independent media organizations improves journalists' 
professionalism and skills. U.S. training and technical advice improves 
judicial administration; promotes criminal justice reform in line with 
the improved Criminal Procedure Code; increases the availability of pro 
bono legal services; and improves the effectiveness of defense 
advocates, judges, and other actors in the criminal justice sector. We 
also work to build local governments' capacity to manage and implement 
budgets; interact with citizens; deliver municipal services; and build 
and maintain infrastructure.
    The United States regularly coordinates our efforts with the EU 
through consultations in Brussels and Washington and via meetings of 
diplomats and assistance partners based in Ukraine.

    Question. Increasing numbers of international NGOs report problems 
with registration and tax issues in Ukraine. What action is and/or has 
the State Department taken to address these concerns?

    Answer. International and local NGOs that implement humanitarian 
assistance programs in Ukraine have been experiencing problems with 
customs clearance since December 2012 due to the absence of a procedure 
within the Government of Ukraine for recognizing shipments as 
humanitarian aid. Until December 2012, this procedure was routinely 
accomplished through the Humanitarian Assistance Commission (HAC) under 
the Cabinet of Ministers. However, a Cabinet of Ministers resolution 
dissolved the HAC in December 2012 and transferred its responsibilities 
to the Ministry of Social Policy (MSP). The MSP has yet to fully 
implement a permanent mechanism to coordinate clearance of humanitarian 
assistance.
    Specifically on these issues, the State Department has been in 
regular contact with representatives from the Joint Jewish Distribution 
Committee (JDC), which provides humanitarian assistance directly to 
Holocaust survivors and funds to Jewish community and cultural centers. 
In years past, the MSP extended tax-exempt status to JDC's annual 
operating budget within 4-6 weeks of JDC's application. In 2013, JDC 
did not receive this tax exemption, despite having applied in late 
November 2012. They have applied again for 2014 and are still awaiting 
a response.
    Officials at our Embassy in Kiev as well as State Department 
officials in Washington have repeatedly reached out to the Ukrainian 
Government on behalf of the NGOs facing these issues in Ukraine. Some 
have only recently managed to receive the necessary approvals to 
continue providing assistance, such as the American Red Cross.

    Question. Ukraine has been pursuing a policy of creating greater 
energy independence and had invited Chevron and Shell in to drill, to 
what extent do you believe that will be pursued in the future?

    Answer. Chevron signed a production sharing agreement (PSA) with 
the Government of Ukraine on November 5, 2013. The agreement could lead 
to a $10 billion investment by Chevron in Ukraine, according to 
Chevron's public announcement. Chevron is now working on concluding an 
operating agreement. It has not yet drilled any exploratory wells, but 
Chevron estimates that the field could produce up to 11 billion cubic 
meters (bcm) of gas per year. ExxonMobil has not yet signed a PSA for 
an offshore field in the Black Sea, but that field could produce an 
estimated 5 bcm per year. ExxonMobil still hopes to conclude the PSA by 
early this year.
    These projects are a major opportunity for Ukraine to develop 
domestic resources that could significantly supplant imported supplies. 
In 2012 Ukraine consumed 55 bcm of gas, of which 33 bcm was imported 
from Russia. Together, these projects could cut Ukraine's dependence on 
Russia in half. Missing the opportunity to sign the PSA with 
ExxonMobil, on the other hand, would be an enormous step backward in 
Ukraine's goal of energy diversification. It would also be a negative 
signal to other foreign companies thinking of investing in Ukraine.
                                 ______
                                 

     Responses of Assistant Secretary Victoria Nuland to Questions 
                   Submitted by Senator Robert Corker

    Question. How many protesters have been imprisoned since November? 
On December 20, 2013, the Ukrainian Parliament adopted an amnesty law 
to have these protesters released; however, Ukraine's Justice Minister 
has said that this law cannot be implemented until it is harmonized 
with a number of other laws.

  <diamond> What is the status of the imprisoned protesters, how many 
        are there, and does the Ukrainian Government intend to fully 
        implement the amnesty law in both letter and spirit?

    Answer. Due to the fluidity of the situation in Ukraine, Embassy 
Kiev reports it is impossible to determine with certainty the number of 
individuals who have been detained or the number released with charges 
pending against them. However, the Ukrainian Interior Ministry released 
a report on January 24 which stated that, since the protests began on 
November 21, 103 people have been detained, at least temporarily, by 
the police. Of them, 53 have been informed that they are suspects in 
ongoing investigations. Twenty-four have been remanded into custody by 
the courts. The week of January 27, at least six protestors were killed 
during clashes with the government.
    The December amnesty law was amended on January 16, 2014. It was 
originally understood that the purpose of the law was to release from 
criminal liability and prosecution all peaceful protesters who were 
detained following government crackdowns on the Maidan, which occurred 
on November 30 and December 11. The law was poorly drafted and enforced 
only in very few cases. The revised law will apparently extend the 
amnesty to cover crimes committed during 21 November-26 December 2013 
by any person for offences such as inflicting bodily injuries, 
harassment of journalists, making false bomb threats, and exceeding of 
authority or service powers.
    On January 23, President Viktor Yanukovych met directly with the 
three main opposition leaders for the first time since the protests 
began. Following those negotiations, both the President and opposition 
have said the government will move to release all peaceful protestors. 
On January 24, at least three individuals who had been detained since 
December 10 were released. Negotiations were continuing as of January 
27. The Parliament is scheduled in an extraordinary session on January 
28. We will continue to monitor closely over the coming days.

    Question. How can the United States and EU prevent further violence 
in Ukraine?

    Answer. We have stated publicly and privately to the Ukrainian 
Government that it must take immediate steps to de-escalate the 
situation. These steps should include removing the riot police from the 
center of Kiev, releasing all peaceful protestors, and holding 
accountable all officials responsible for ordering violence. Vice 
President Biden has personally delivered this message to President 
Viktor Yanukovych during three phone calls over the last week. 
Assistant Secretary Victoria Nuland also spoke to Foreign Minister 
Kozhara on January 28 to reiterate that all sides must refrain from 
violence. She urged the government to win back the trust and confidence 
of the Ukrainian people. She will be engaging Ukrainian officials again 
at the Munich Security Conference and plans to visit Kiev on February 
6.
    The EU and several member states have echoed these statements and 
are becoming increasingly engaged. Stephan Fuele, the EU Commissioner 
for Enlargement and European Neighborhood Policy, was appointed to 
represent the EU and all member states in talks with Ukrainian 
officials and the opposition. He met with President Yanukovych on 
January 24. High Representative Catherine Ashton traveled to Kiev the 
week of January 27 and returned the week of February 3 for similar 
discussions. Chancellor Angela Merkel spoke to Yanukovych on January 23 
to encourage a serious dialogue with opposition leaders. Foreign 
Minister Kozhara spoke to his counterparts in Poland, Sweden, and 
Germany on January 27.
    On January 23, the opposition called for a truce to allow time for 
negotiations with the government. To date, that truce has largely held 
and there has been a significant de-escalation in violence. However, 
our officials at Embassy Kiev will continue to follow events closely.

    Question. Moscow has called for the EU to engage in trilateral 
talks with Russia and Ukraine on the topic of EU-Ukraine relations. Why 
should Russia be involved in this? Shouldn't the EU and Ukraine define 
their relations on a bilateral basis?

    Answer. The EU has said that it will not engage in trilateral 
negotiations with Russia and Ukraine, as the question of Ukraine's 
association with the EU is a bilateral issue. The EU has been clear 
that the agreement itself has already been negotiated directly with 
Ukraine over a number of years and any such discussions would not 
reopen those negotiations.

    Question. Ukraine has substantially reduced imports of Russian 
natural gas over the past 2 years. Will Moscow's recent price cut 
reverse this trend and thus increase Ukraine's energy dependence on 
Russia?

    Answer. The details of the gas price deal with Russia are not 
public, so we do not know if Ukraine committed to importing a certain 
volume of gas in exchange for the discounted price. In addition, the 
price will be re-negotiated every 3 months, so it remains unclear 
whether the discount will be permanent. Therefore, at this time it is 
not possible to predict how much gas Ukraine will import from Russia in 
the future.
                                 ______
                                 

             Response of Hon. Victoria Nuland to Question 
                 Submitted by Senator Edward J. Markey

    Question. I cosponsored Senate Resolution 319, which was adopted by 
unanimous consent on January 7, to express support for the Ukrainian 
people after their President's unfortunate decision not to sign an 
Association Agreement with the European Union. In part, the resolution 
noted that ``in the event of further state violence against peaceful 
protestors, the President and Congress should consider whether to apply 
targeted sanctions, including visa bans and asset freezes, against 
individuals responsible for ordering or carrying out the violence.''

  <diamond> Under what circumstances do you believe such measures would 
        be warranted? What other tools might the United States utilize 
        in order to hold Ukraine's leaders responsible for acts of 
        violence?

    Answer. We were appalled by the violence in Ukraine which led to 
four deaths and many more injuries and by the government's 
antidemocratic steps, including passage of problematic laws restricting 
basic freedoms. These antidemocratic steps fueled popular frustration 
and tensions, and to a significant degree are responsible for current 
tensions. The U.S. Government has remained active throughout this 
crisis, reaching out to the opposition and the government at senior 
levels, and civil society leaders, making clear our interest in a 
peaceful, negotiated solution to the current standoff, and we are 
beginning to see positive steps, including the repeal of antidemocratic 
legislation. We have made clear that we have a variety of options at 
our disposal, including but not limited to sanctions, if warranted. To 
underscore our concern, the U.S. Embassy in Kiev has announced that it 
revoked visas for several Ukrainians involved in the recent violence. 
We are looking at other available policy tools and assistance 
mechanisms and consulting with the EU and European governments most 
closely interested in Ukraine and its future.

    Response of Deputy Assistant Secretary Thomas Melia to Question 
                 Submitted by Senator Edward J. Markey

    Question. I continue to be concerned about deteriorating conditions 
in Ukraine for LGBT individuals. Unfortunately, it has become 
increasingly common for factions opposed to closer affiliation with the 
European Union to try to mark the LGBT community as an unwanted 
``Western'' force in Ukrainian society.

  <diamond> Do you see signs that reactionary groups are using the LGBT 
        community as a scapegoat for Ukraine's problems?
  <diamond> How can the United States and our European allies promote 
        equal rights for LGBT individuals without at the same time 
        providing fodder for the anti-LGBT propaganda being promulgated 
        in Ukraine?

    Answer. We share your concerns and want to assure you that we are 
well aware of the problems affecting the LGBT community in Ukraine. 
During the last 2 years we have put in place programs to support local 
civil society organizations working to advance the human rights of LGBT 
persons. We have also established strong partnerships with like-minded 
European governments to support Ukrainian LGBT human rights defenders 
and activists on the front lines.
    We have seen officials in a number of governments, including Russia 
and Ukraine, describe LGBT persons and their human rights as ``western 
imports.'' To them we reiterate the words of former Secretary of State 
Hillary Clinton: ``gay people are born into and belong to every society 
in the world. They are all ages, all races, all faiths; they are 
doctors and teachers, farmers and bankers, soldiers and athletes. They 
are our family, our friends, and our neighbors. Being gay is not a 
Western invention; it is a human reality.'' And we remind them that 
universal human rights--enshrined in the Universal Declaration of Human 
Rights--belong to everyone, not just to certain people in certain 
countries.
    Through statements, actions and bilateral engagement with the 
Government of Ukraine--in coordination with our European allies--we 
have pushed back against the fear, ignorance, and hate that lead to 
violence against members of the LGBT community. There have been some 
successes.
    On numerous occasions we urged the Government of Ukraine, publicly 
and privately, to fulfill its commitments to OSCE principles and 
obligations as a party to the International Covenant on Civil and 
Political Rights, including protecting the fundamental freedoms of all 
of its citizens, including freedom of expression. We also advocate for 
respect for the human rights of members of minority communities.
    Last May, under arduous circumstances, LGBT activists hosted Kiev's 
first Equality Pride March. Our colleagues at Embassy Kiev maintain 
contact with LGBT activists and provide moral and other support to 
those who come under threat.
    In addition to our individual and bilateral engagement, in 2011 the 
State Department launched the Global Equality Fund to support projects 
and programs to advance and protect LGBT persons globally. Since then, 
the Fund has allocated over $7.5 million to civil society organizations 
in over 50 countries, including in Europe, to bolster their efforts to 
increase human rights protections for LGBT persons.
    Still, we know that much more needs to be done to ensure the 
protection of LGBT persons in Ukraine, to separate discussion of their 
rights from the geopolitics of the region, and to reduce 
discrimination, social stigma, and violence. We will continue to speak 
out and to work with the European Union and within the Organization for 
Security and Cooperation in Europe to press for respect for human 
rights and democratic principles in Ukraine.

                                  [all]
</pre></body></html>
